<html>
<title> - NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA) FISCAL YEAR 2005 BUDGET REQUEST</title>
<body><pre>[Senate Hearing 108-1003]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 108-1003

                    NATIONAL OCEANIC AND ATMOSPHERIC
                 ADMINISTRATION (NOAA) FISCAL YEAR 2005
                             BUDGET REQUEST

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON OCEANS, FISHERIES, 
                            AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION
                               __________

                             APRIL 29, 2004
                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-673 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

           SUBCOMMITTEE ON OCEANS, FISHERIES, AND COAST GUARD

                   OLYMPIA J. SNOWE, Maine, Chairman
TED STEVENS, Alaska                  JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia, Ranking
KAY BAILEY HUTCHISON, Texas          ERNEST F. HOLLINGS, South Carolina
GORDON H. SMITH, Oregon              DANIEL K. INOUYE, Hawaii
JOHN E. SUNUNU, New Hampshire        JOHN B. BREAUX, Louisiana
                                     MARIA CANTWELL, Washington











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 29, 2004...................................     1
Statement of Senator Cantwell....................................    29
Statement of Senator Snowe.......................................     1

                               Witnesses

Lautenbacher, Jr., Conrad C., Vice Admiral, U.S. Navy (Ret.), 
  Under Secretary of Commerce for Oceans and Atmosphere, and NOAA 
  Administrator, U.S. Department of Commerce.....................     4
    Prepared statement...........................................     7

                                Appendix

Response to written questions submitted to Vice Admiral Conrad C. 
  Lautenbacher by:
    Hon. Barbara Boxer...........................................    56
    Hon. Maria Cantwell..........................................    58
    Hon. Ernest F. Hollings......................................    46
    Hon. Daniel K. Inouye........................................    52
    Hon. Olympia J. Snowe........................................    41
    Hon. Ron Wyden...............................................    54
 
                    NATIONAL OCEANIC AND ATMOSPHERIC
                 ADMINISTRATION (NOAA) FISCAL YEAR 2005
                             BUDGET REQUEST

                              ----------                              


                        THURSDAY, APRIL 29, 2004

                               U.S. Senate,
Subcommittee on Oceans, Fisheries, and Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:58 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Olympia J. 
Snowe, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. We will now convene today's hearing on the 
National Oceanic and Atmospheric Administration's budget 
request for Fiscal Year 2005.
    Following last week's release of the preliminary report of 
the U.S. Commission on Ocean Policy, our Nation's approach to 
managing and conserving ocean resources, and, equally 
important, the funding of these programs, are at the forefront 
of our attentions.
    More than at any other time in our history, our oceans 
require a sound science-based stewardship and coordinated 
management systems as our coastal population--which is, by the 
way, growing at a rate of 3600 people daily--demands more from 
our seas.
    First, Admiral Lautenbacher, I want to thank you for 
appearing before us today and discussing the key programmatic 
and budget issues confronting your agency. As my Subcommittee 
reviews NOAA's activities, analyzes the commission's 
recommendations, and prepares to act upon them in the months 
ahead, I will continue to look to you for insights on ways to 
improve the governance, management, and conservation of our 
oceans' many resources, as well as the funding of these 
programs.
    Today, we will focus attention on how NOAA's budget request 
for Fiscal Year 2005, of $3.4 billion, affects your agency's 
ability to meet its mission. This request represents an 8 
percent decrease from the previously enacted 2004 level of $3.7 
billion, which obviously is an indication that funding for many 
essential programs could be cut or eliminated if this budget 
proposal is enacted.
    As the authorizing subcommittee of Congress, we need to 
hear from you about how your agency sets its budget priorities, 
and how a lack of sufficient funding for many important 
programs will inhibit NOAA's ability to meet its many critical 
mandates.
    The Fiscal Year budget contains many items to help address 
the ongoing challenges facing our fisheries, such as $3.75 
million for cooperative research in the Northeast, $18.9 
million for better stock assessments, $5.2 million for 
fisheries economics and social science research, and $2.5 
million for regulatory streamlining. However, it is equally 
essential that NOAA sufficiently fund some of our highest 
priority fisheries programs, such as the Observer Program or 
the Saltonstall-Kennedy grants program, which has been in 
existence for more than 30 years, and is an extremely critical 
program to sciences and fishermen throughout the Nation. I'm 
very concerned that that's been zeroed out in this ongoing 
budget request, and that the funds from previous years have 
been redirected to other regional programs.
    In addition to fishery issues, we should focus on one of 
the most vital cross-cutting NOAA programs, integrated ocean 
observation networks. Considering the many uses of the critical 
environmental data obtained from this system--including 
fisheries modeling and management, coastal planning, harmful 
algal blooms management and mitigation--it is no surprise that 
such an observation system is one of the key recommendations of 
the U.S. Ocean Commission.
    My observation bill on oceans, which passed the Senate 
unanimously, would authorize NOAA to provide leadership in this 
area, and I support your ongoing efforts, Admiral Lautenbacher, 
to maintain this program as a major priority at NOAA.
    Also, I am very concerned about some of the significant 
reductions that NOAA is making in oceanic programs. For 
example, the National Ocean Service budget is being cut to 35 
percent from Fiscal Year 2004, and the Oceanic and Atmospheric 
Research budget will be reduced 13 percent at a time when we 
need to invest more in our ocean and coastal programs. We 
should be taking all necessary steps to shore up financial and 
programmatic support in these areas. Your testimony today needs 
to explain what the effects of such cuts will be.
    Of course, my home state of Maine is affected by nearly all 
of NOAA's ocean and coastal missions. And the Gulf of Maine has 
been an essential observation system for scores of fish 
species, marine mammals, productive habitats, and even deep-sea 
coral structures. So when NOAA succeeds in managing these 
resources, it not only benefits Maine citizens, but it benefits 
all of America.
    This linkage between NOAA and Maine is felt most 
pronouncedly when it comes to the relationship between the 
fishing industry and your agency, Admiral Lautenbacher. And 
this weekend, for the New England groundfish industry, is the 
most critical weekend, because on Saturday the industry will 
come under the regulations of Amendment 13. These measures will 
fundamentally change the face of the fishing communities, and 
alter a valued way of life for many fisherman, unless we can 
reduce and minimize the negative impact of the implementation 
of Amendment 13.
    And I certainly am going to do everything within the 
auspices of my position here, Admiral Lautenbacher. I know you 
have been supportive in the past in understanding what's at 
stake here, but I certainly don't want to sit by and watch the 
coastal communities and industries that have depended upon this 
industry for more than four centuries wither under this harsh 
Federal regulation. And so, therefore, I am encouraging you, 
imploring you, to use your agency in a very proactive manner, 
as soon as possible, to do all that you can to minimize and 
mitigate the negative effects and consequences and the 
disruptions that will occur to the fishing communities and the 
families and fisherman themselves as a result of the 
implementation of Amendment 13. We've had a lot of 
conversations about it. We'll talk about it further.
    But I'm here to say today, Admiral Lautenbacher, that I 
would hope that your agency can move quickly to institute 
measures that will allow for the use of B-days, assure future 
access of latent fishing effort, and implement necessary 
special access programs. I understand the normal rulemaking 
process can take several months to complete, but I can assure 
you that's several months that we don't have, and certainly 
that is true for the fishermen. They can ill afford to be 
waiting months upon months for many of these mitigating 
measures.
    Amendment 13 going forward without any relief is a crisis. 
And I expect the National Marine Fisheries Service to use its 
ability to propose an emergency regulation to implement every 
conceivable mitigation measure.
    To make matters worse, I am deeply concerned about the new 
requirements that are being imposed, and that your agency is 
enacting, as a result of the regulations that were issued this 
week. They would require every fishing vessel to return to port 
this weekend, prior to the beginning of the new fishing year. 
And that, obviously, is on Saturday. I think this is 
unnecessary. It's certainly an unprecedented action, which I 
think is dangerous and costly to the fishermen, and I strongly 
urge you to reconsider this requirement. And I would like to 
have you explain the rationale of the agency as to why this is 
worth the harm that it could cause the industry.
    What is even more troubling is the approval, over the 
strong objections of the council, of the mandatory five-day 
advance reporting for any vessel wishing to fish on the 
northeastern edge of the Georges Bank. These vessels are 
already required to carry a vessel monitoring system and report 
daily on their fishing landings. Additionally, requiring 
fisherman to report five days in advance, and declare a 
specific fishing area, is a shocking and, frankly, outrageous 
requirement. This measure will make it too risky to fish on 
Georges Bank, and will greatly increase the fishing pressures 
on the Gulf of Maine, which is precisely what we have been 
trying to avoid in Amendment 13.
    Admiral, I'm absolutely incredulous that your agency would 
think of advancing this kind of onerous requirement on the 
industry at this time. And I hope that we can have a discussion 
about this, this morning, because May 1 is fast upon us. 
Frankly, in the discussions that we had with the fishing 
industry in Maine yesterday in reaction to the final rules 
issued this week, they were incredulous that the agency would 
even propose them, or didn't think, even in the proposed rules, 
that they actually would become a reality.
    So I hope that we can talk about this today and find ways 
to allay their concerns about how we're going to do this. I 
just cannot imagine why we would require fishermen to have to 
report five days in advance where they're going to precisely 
fish in the northeastern quadrant, or wherever, of the Georges 
Bank, and to locate that. It is absolutely remarkable to me 
that anybody would recommend that in addition to the onerous 
burden of Amendment 13, with its significant reduction of 
fishing days.
    These are issues that are fundamental to Maine and to New 
England and to other parts of the country that are going to be 
affected by this particular regulation. I think it speaks 
volumes about the problems that we have in trying to make these 
adjustments in accordance with the law and using the 
flexibilities of the law so that it doesn't have such a severe 
impact on the industry in such a precipitous way.
    I look forward to hearing from you what we can do to ensure 
that we do not further disrupt the industry, and what we can do 
in the intervening days that we have left--which is not much 
time--between now and May 1, to have you and the agency 
reconsider those proposals.
    So, with that, Admiral Lautenbacher, I welcome you to the 
Committee, and you may begin. I'll submit your entire testimony 
for the record.

           STATEMENT OF CONRAD C. LAUTENBACHER, JR.,

       VICE ADMIRAL, U.S. NAVY (RET.), UNDER SECRETARY OF

          COMMERCE FOR OCEANS AND ATMOSPHERE, AND NOAA

           ADMINISTRATOR, U.S. DEPARTMENT OF COMMERCE

    Admiral Lautenbacher. Thank you very much, Madam Chair, 
Members of the Committee, and staff.
    Thank you very much for the opportunity to testify today in 
support of the President's 2005 budget request. Let me thank 
you for your support of our agency and for the work that we do 
in monitoring and understanding our environment. Your support 
has been critical to our ability to function and provide those 
services to the Nation.
    As you mentioned, our budget request for this year is 
roughly $3.4 billion, and that is 8.4 percent below the enacted 
level of $3.6 billion. Just for sake of completeness, it is an 
increase of 1 percent over what the President requested last 
year of Congress, so it does represent an increase to the 
Administration, in that sense.
    To go along with the budget, I wanted to just say a few 
things about the agency's highlights and successes, because I 
think it's important to look and see what this money has done 
for the country.
    In this past year, NOAA produced the first-ever draft 
Climate Change Science Strategic Plan, as required by the 1990 
Global Change Research Act. It's the first Administration to 
deliver on that request since that Act was created. It's a good 
plan. It has been reviewed by the National Academy of Sciences, 
and it's been given an endorsement as the way government 
research ought to be conducted.
    Internationally, there have been a number of efforts that 
NOAA has engaged in that have brought success this year. As you 
know, many of our issues are international in scope, 
particularly in the fishing area. Under NOAA's leadership, 
ICCAT, the Convention on Atlantic Tunas, adopted several new 
measures to promote effective monitoring and reporting and full 
compliance with ICCAT measures, by expanding the use of trade 
measures to deter illegal, unregulated, and unreported fishing. 
There are new management measures put in place for bigeye and 
albacore tunas. We have continued to protect small fish, and 
have instituted rules to provide for the reduction of catch of 
small fish. And ICCAT has banned the use of drift nets for 
fishing on large pelagics in the Mediterranean, which will help 
us quite a bit in restoring the highly migratory species that 
this commission works on.
    I'd like to thank you for your support of our ship 
acquisition and ship transfer program. We have been able, with 
the agreement of the Committee, to replace many of our older 
ships. Four have been replaced and brought online, based on 
this support, and I appreciate that. We also launched the first 
of our four new fishery survey vessels in 2003. The second 
keel-laying will be done in less than a month.
    When I came onboard NOAA, we could not even tell how old 
our fleet was. I finally got the group to calculate it, and 
it's close to 35 years of age. As you know from my testimony in 
my Navy days, a Navy ship at 30 years is well out of a state of 
technology and use to the Nation. We have been able to reduce 
NOAA's fleet age now to 28.2 years, so we're just under the 
margin of what I would call an acceptable lifetime for our 
ships.
    I'm sorry my friend, the Commandant of the Coast Guard, is 
not here today. In prior testimony, when he mentioned the need 
for support of his budget for maintenance and operation of a 
fleet which needed a great deal of help, he brought out a piece 
of steel. I would like to show you what comes from our ships. 
We not only have rusted steel; this came for a ship made of 
wood, which is still serving NOAA in the Gulf of Alaska, one of 
the most dangerous places for ships to be working. That ship is 
the 54-year-old John Cobb, and that's what NOAA works with.
    I am dedicated to bringing the age of our fleet back to 
something that befits our Nation and our position as the 
largest EEZ owner in the world, as well as our need to maintain 
a fisheries survey research capability that's equal to the 
status of this Nation. This ship is the kind of thing we're 
looking to replace, and we appreciate your support. We are 
asking for a third vessel in the budget this year.
    I'm proud to report that coverage in the United States by 
NOAA Weather Radio has expanded. It can now be heard by 95 
percent of the American public. And it's been accelerated to an 
all-hazards warning system so it does more than just weather 
for the country.
    We have launched a bycatch web page in January 2003, and, 
in March, unveiled a Fishery National Bycatch Strategy, which 
includes a series of regional bycatch reduction implementation 
plans. It also standardizes bycatch monitoring programs across 
the United States. Significant progress has been made in the 
bycatch issue this year.
    We issued the first ecological forecast of the ``dead 
zone'' in the Gulf of Mexico. We are now capable of getting 
ahead of some of the problems that happen along our coasts, 
such as harmful algal blooms and anoxia, as well as the hypoxic 
events in our waters off the coast.
    We have experienced impressive salmon returns in the 
Pacific Northwest due to a combination of increased habitat and 
favorable ocean conditions. These returns have been 800 percent 
increases over recent lows, so we are turning the corner, we 
believe, on Pacific salmon.
    We supported the initiation last year of 200 new grassroots 
habitat restoration projects. Those projects will restore 3,000 
acres of coastal and marine habitats that support the 
sustainability of our commercial and recreational fisheries. 
Those programs, included in the budget, leverage four to ten 
dollars for every Federal dollar that's spent restoring 
habitat. It is a very effective program.
    Those are just a few of the highlights. The rest are in my 
testimony.
    The budget this year is prioritized among our four program 
goals. We have created a strategic plan. Our budget was created 
to match that strategic plan, and we have prioritized the 
programs in support of the four program goals, which include: 
ecosystem research and management, climate, commerce and 
transportation, and weather and water.
    As I've mentioned, for our ecosystem approach to restoring 
and managing the use of our coastal and ocean resources, we're 
requesting $33 million for the final increment of the 
acquisition of a third fishery survey vessel. Also in ecosystem 
management is an increase for marine fisheries stock assessment 
of $4 million, for a total of $19 million; $2 million 
additional for strengthening living marine resources, which 
provides an additional 250 days at sea for stock assessments. 
We are asking for $5.9 million for an increase in the vessel 
monitoring system program, which you mentioned. It's a very 
effective program, and if we can spread it to more fisheries 
around the United States it will help us in maintaining equity 
in fisheries as well as managing the various fisheries that can 
use that capability.
    In our program for commerce and transportation, we have 
asked for $2 million more for the ENC program, Electronic 
Navigational Charting. We've requested $2.7 million for more 
national water-level observation network, as part of our 
integrated coastal observing system, which you mentioned. And 
we continue to support that, as a high priority.
    And, with that, let me again mention--as I have in many 
years past--that people remain our highest priority. We are 
asking basically for $86 million to help with the pay raise, to 
help with inflationary increases, and to ensure that the 
programs that Congress wishes to be conducted are executed 
properly. That is my highest priority, of what I've mentioned.
    Obviously, there are not that many initiatives this year. 
This is a wartime budget for the Administration. Domestic 
programs have been held in check. My staff has done, I think, 
an admirable job in trying to produce a program that meets the 
highest-priority needs of the country within the budget 
allocations that have been given to the Department of Commerce.
    Again, Madam Chair, thank you very much for your support, 
for holding this hearing, and for the work that the Committee 
and the staff have done to ensure that we're able to serve the 
Nation.
    Thank you.
    [The prepared statement of Admiral Lautenbacher follows:]

 Prepared Statement of Conrad C. Lautenbacher, Jr., Vice AdmiraL, U.S. 
Navy (Ret.), Under Secretary of Commerce for Oceans and Atmosphere, and 
            NOAA Administrator, U.S. Department of Commerce
    Thank you, Madam Chair, and members of the Subcommittee, for this 
opportunity to testify on the President's FY 2005 Budget Request for 
the National Oceanic and Atmospheric Administration (NOAA). First, let 
me thank you, the Congress, members of your subcommittee and the staff 
for your outstanding support of NOAA and the critical programs and 
services NOAA provides to the Nation.
    The FY 2005 Budget Request for NOAA is $3.38B, a net decrease of 
$308.3M, or 8.4 percent, from the FY 2004 enacted level of $3.6B. The 
funds requested for NOAA for FY 2005 provide essential support to our 
current services: the programs that enhance our scientific 
understanding of the oceans and atmosphere in order to sustain 
America's environmental health and economic vitality and allow us to 
invest in some new technologies and services. Before I discuss the 
details of our FY 2005 Budget Request, I would like to briefly 
highlight some of NOAA's notable successes in the past fiscal year. 
These successes demonstrate that ``NOAA is where science gains value.'' 
The value we achieved this past year would not have been possible 
without your support.
FY 2003 Accomplishments
Climate Change Strategic Plan
    The Climate Change Research Initiative (CCRI) was officially 
launched on June 11, 2001. With the assistance of 11 other agencies, 
NOAA produced the first ever Draft Climate Change Science Program 
Strategic Plan (CCSP) in February 2003, as mandated by the 1990 U.S. 
Global Change Research Act. Based on comments from the National 
Research Council (NRC), over the course of the last year, the report 
was refined. The final was recently released. On February 18, 2004 the 
NRC published a favorable review of the CCSP. In the review, the NRC 
praised our involvement of the public in the development of the Plan, 
and stated that we set a high standard for government research programs 
designed to deliver relevant climate information to policymakers. NOAA 
has a crucial role in the development of the twenty-one CCSP reports 
that will be developed over the next four years. NOAA has the lead on 
several of these critical products, including the reports on 
1)Aerosols--Impact on climate, expected in 2006-2007, 2) North American 
Carbon Budget-Implications for the Global Carbon Cycle, expected in 
2005 and 3) Decision Support--Evaluating the use of seasonal to inter-
annual forecasts and observational data, also expected in 2005.
International Commission for the Conservation of Atlantic Tunas (ICCAT)
    Under NOAA's leadership, the International Commission for the 
Conservation of Atlantic Tunas (ICCAT) adopted several new measures to 
promote effective monitoring and reporting by members, ensure full 
compliance with ICCAT measures, and expand the scope and use of trade 
measures to deter illegal, unregulated and unreported (IUU) fishing. 
The Commission also adopted new management measures for bigeye and 
albacore tunas. In continuing efforts to protect small fish, the 
Commission adopted a ban on the use of driftnets for fishing on large 
pelagics in the Mediterranean and agreed to take the necessary measures 
to reduce mortality of juvenile swordfish. ICCAT also adopted a U.S. 
proposal on data collection and quality assurance that establishes a 
fund, with a startup contribution from the United States, for training 
in data collection and support for participation in ICCAT's scientific 
meetings by developing ICCAT members.
Reduction in NOAA Fleet Age
    I would like to take the opportunity to thank you, Mr. Chairman, 
and the members of your committee for supporting NOAA ship acquisition 
over the last several years, thus allowing NOAA to bring four new NOAA 
ships online in the last fiscal year. The TOWNSEND CROMWELL was 
replaced by the converted Navy T-AGOS vessel OSCAR ELTON SETTE. The 35-
year old FERREL was replaced by the converted YTT vessel NANCY FOSTER. 
The Navy T-AGOS MCARTHUR II replaced the 37-year old MCARTHUR and, 
finally, the hydrographic Vessel THOMAS JEFFERSON was acquired from the 
Navy to replace the 40-year old WHITING. NOAA also launched the first 
of four new fisheries survey vessels (FSV) in 2003, named the OSCAR 
DYSON. This FSV will provide new research capabilities for NOAA in the 
North Pacific. Adding these new vessels to the NOAA fleet has reduced 
the average age of NOAA ships by 5.4 years from 33.6 years to 28.2 
years, and will allow us to sustain our marine operations in FY 2004 
and beyond. Building on this success, the request for the continued 
support of the NOAA fleet in FY 2005 is $13.2M for fleet planning and 
maintenance, and $35.6M for fleet replacement, which includes 
acquisition of the third Fisheries Survey Vessel.
NOAA Weather Radio Coverage
    I am proud to report that coverage in the United States by NOAA 
Weather Radio has expanded significantly in the last year. The new 
improved NOAA Weather Radio voice can now be heard by 95 percent of the 
American public, providing severe weather warnings twenty-four hours a 
day, seven days a week. With the $5.5M NOAA received for NOAA All 
Hazards Weather Radio in FY 2004, we are expanding the use of the All 
Hazards capability. We are also working with the Department of Homeland 
Security to provide a single broadcast capability in an effort to 
protect the Nation.
Earth Observation Summit
    On July 31, 2003, NOAA participated in the Earth Observation Summit 
(Summit), which included representatives of 34 nations, the European 
Commission and 20 international organizations. Since July an additional 
eight countries have joined our efforts, for a total of 42 countries 
involved with follow-on activities from the Summit, and interest keeps 
building. Over 20 international organizations are also working with us. 
The declaration issued by the summit participants established an 
intergovernmental ad hoc Group on Earth Observations (GEO), which I co-
chair with three of my international counterparts. GEO is charged with 
preparing a 10-year implementation plan for a Global Earth Observation 
System of Systems (GEOSS). The Summit represented a high level 
international commitment to move toward a comprehensive, coordinated, 
and sustained global observing network. In the last week of February, I 
joined my colleagues from South Africa, Japan and the European 
Commission in Cape Town, South Africa, to co-chair the third GEO 
meeting with members of five working subgroups: Architecture, Capacity 
Building, Data Utilization, User Requirements & Outreach, and 
International Cooperation. At this meeting the draft Framework of the 
groundbreaking 10-year implementation strategy was finalized for 
presentation to Ministers for adoption at the next global Earth 
Observation Summit in Tokyo on April 25, 2004. The third and final 
Earth Observation Summit will be held in Brussels, Belgium in February 
2005 for the purpose of agreeing to the 10-year implementation plan.
Improved Weather and Water Forecasts
    The forecasts of Hurricane Isabel's path and force this past 
September were the most accurate ever issued by NOAA meteorologists. 
The watches were issued 50 hours prior to landfall, and warnings came 
38 hours prior to landfall, with an error in the 48-hour storm track 
forecast of 61 nautical miles. This was significantly better than the 
NOAA performance goal of more than 130 nautical miles error for storm 
track forecasts in 2003. The accuracy of the forecasts for this 
particular hurricane is a result of our investment in research, 
supercomputing, and improved forecasting models.
    The lead time for tornado warnings also improved in 2003, up from 
an average of four minutes in 1987 to an average of 13 minutes, and 
surpassed the goal of 12 minute average warning lead time in 2003. The 
improved lead time resulted from our investment in the National Weather 
Service modernization, as well as recent investment in improvements to 
critical systems such as the NEXRAD radar and AWIPS work stations.
European Organization for the Exploitation of Meteorological Satellites
  (EUMETSAT) Agreements

    On June 24, 2003 NOAA and the Director General of the European 
Organization for the Exploitation of Meteorological Satellites 
(EUMETSAT) signed two agreements that continue the history of 
collaboration and cooperation between our two organizations. EUMETSAT 
is our counterpart in Europe, and operates satellites for environmental 
monitoring. EUMETSAT has operated geostationary satellites since the 
1980s and will launch its first polar satellite next year.
    The Joint Transition Activities (JTA) agreement is a continuation 
of the1998 Initial Joint Polar-Orbiting Operational Satellite System 
(IJPS) Agreement in which NOAA agreed to place instruments on two 
EUMETSAT METOP satellites, and EUMETSAT agreed to place an instrument 
on the NOAA N and NOAA N' s Polar-orbiting Operational Environmental 
Satellites (POES). In addition, each organization will have access to 
the other party's data and products. Under the IJPS agreement, 
EUMETSAT's satellites will assume the morning orbit, resulting in great 
cost-savings to U.S. taxpayers, since a POES satellite will not have to 
be launched in that orbit. NOAA will continue to have access to 
EUMETSAT data and products and EUMETSAT will have access to the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) data and products.
    The second NOAA-EUMETSAT agreement allows for U.S. access to data 
from the EUMETSAT geostationary system, which will improve early 
warning of tropical waves off the coast of Africa that could become 
tropical storms or hurricanes in the Atlantic. The data also will 
provide an early read of weather in Europe that may affect Alaska and 
the west coast of the United States.
First Operational Solar Imager
    The first operational Solar X-ray Imager (SXI) was activated on the 
NOAA GOES-12 satellite last spring. This equipment provides images of 
the sun every minute. Access to these images has led to an increase in 
lead time for predicting solar flares and geomagnetic storms by as much 
as 12 minutes. This increased lead time is very helpful in managing the 
Nation's electrical power and communications services. In October 2003, 
NOAA researchers helped forecast a Level 5 solar storm, and captured 
images of this record-breaking storm using the SXI. As a result of this 
forecast, the airline industry was able to re-route transpolar flights, 
averted disrupting communications with those flights, and avoided 
exposing passengers to high levels of solar radiation.
Reduction of Bycatch
    NOAA Fisheries launched a bycatch webpage in January 2003 that is 
serving as a clearinghouse for information on national and 
international efforts to minimize bycatch problems in the fishing 
industry. On March 11, 2003, NOAA formally unveiled the Fisheries 
National Bycatch Strategy, which includes a series of regional bycatch 
reduction implementation plans. The national strategy also standardizes 
bycatch monitoring programs across the United States. In addition to 
this program, numerous fishery regulations were implemented in 2003 to 
specifically address bycatch issues. On January 5, 2004, NOAA announced 
the results of a study that examined ways to reduce bycatch in the 
Atlantic longline fishery. The study found that the utilization of 
certain hook and bait combinations could reduce interactions of 
leatherback and loggerhead turtles with longline gear by 65 and 90 
percent, respectively.
Gulf of Mexico Dead Zone Forecasts
    NOAA issued the first ecological forecast of the dead zone in the 
Gulf of Mexico in the summer of 2003. This is the first advance 
forecast of the annual hypoxic event in the Gulf. NOAA scientists 
believe the ability to forecast events of this nature will become an 
important tool for decision makers and the public to use when making 
water use decisions.
Pacific Salmon
    The Pacific Northwest has been experiencing impressive salmon 
returns in many areas over the past few years. In some cases, 
endangered Pacific salmon stocks listed under the Endangered Species 
Act (ESA) have increased up to 800 percent over recent lows. Although 
this trend is thought to be partially due to the current favorable 
ocean conditions, it is also related to our investment in habitat 
restoration and conservation partnerships. The challenge of rebuilding 
salmon stocks requires a long-term commitment, and our efforts must be 
maintained to meet the goal of recovering these stocks.
Fishery Habitat Restoration
    In the last year, NOAA supported the initiation of 200 new grass-
roots fishery habitat restoration projects. These projects will restore 
3000 acres of coastal and marine habitats that support the 
sustainability of the Nation's commercial and recreational fisheries, 
as well as enhancing NOAA's other trust resources, including marine 
mammals and sea turtles. Additionally, by utilizing relationships with 
NOAA's national, regional, and local partners, the NOAA Community-based 
Restoration Program has been able to leverage $4-$10 for every Federal 
dollar invested.
Homeland Security Programs--DCNET
    DCNET is a prototype system designed to provide information about 
dispersion of particulate matter, including biological agents, over 
urban areas. There are seven operational DCNET sites in the Washington, 
DC area. Three additional sites will soon be installed for a total of 
ten covering Washington, DC. There are also two operational DCNET sites 
in New York City. The DCNET system provide first responders with 
accurate determinations of the risk of exposure to toxic airborne 
particles and gasses for inhabitants of these metropolitan areas. NOAA 
is working with the Department of Homeland Security and other Federal 
agencies on the development of this program.
FY05 Budget Request Priorities
    As you can see from the items I just mentioned, NOAA is at the 
forefront of many of the Nation's most critical needs, helping set a 
course for wise investment of America's natural resources. To help meet 
these needs in a fiscally responsible manner, every dollar of NOAA's FY 
2005 Budget Request was prioritized among the four program mission 
goals that form the backbone of NOAA's current five year strategic 
plan. These program goals are:1) to understand climate variability and 
change to enhance society's ability to plan and respond; 2) to serve 
society by providing weather and water information; 3) to protect, 
restore and manage the use of coastal and ocean resources through 
ecosystem approaches to management, and 4) to support the Nation's 
commerce with information pertaining to safe, efficient and 
environmentally sound transportation. This Budget Request also 
recognizes the importance of supporting NOAA's most important assets: 
our people and infrastructure.
Areas of Future Growth
    The FY 2005 NOAA Budget Request will sustain our ability to manage 
resources and build on the successes we achieved in FY 2003, and hope 
to achieve in FY 2004. The funds requested for NOAA in FY 2005 support 
five specific areas of targeted growth, which I refer to as ``cross-
cutting themes.'' These five cross-cutting themes describe the 
programmatic and managerial underpinnings that facilitate delivery of 
NOAA services to the Nation and effective operation of our 
organization. These cross-cutting themes are: 1) the integrated global 
environmental observation and data management system; 2) environmental 
literacy, outreach and education; 3) sound, reliable state-of-the-art 
research; 4) international cooperation and collaboration; and 5) 
organizational excellence. These themes are not new investment areas. 
Rather, the focus on these particular areas is intended to 
strategically begin the process of building up existing specific core 
strengths in NOAA to improve the execution of activities and the 
functions of our organization as we look toward the future. Each of 
these cross-cutting areas falls under at least one of NOAA's four 
programmatic mission goals, or supports our people and infrastructure.
    Under the integrated global environmental observation and data 
management system theme, NOAA will develop and increase collaboration 
with local, state, regional, national and international partnerships to 
augment global-to-local environmental observations and data management 
to enhance continuous monitoring of ocean/atmosphere/land systems.
    In the area of environmental literacy, outreach and education, NOAA 
will utilize our broad spectrum of ecological and social science 
expertise to educate present and future generations.
    To support sound, state-of-the-art research, we will use our 
capabilities to provide national and international leadership on 
critical environmental issues and address the research needs of 
industry, academia, and government.
    To promote international cooperation and collaboration, NOAA will 
seek to support national policies and interests in an ecosystem 
approach to management, climate change, earth observation and weather 
forecasting. We will also seek to maximize the mutual benefits of 
international exchange with our global partners in these areas.
    Improvements in organizational excellence, including leadership 
development, human capital and information technology will increase the 
satisfaction of NOAA's customers, and improve organizational 
performance and productivity.
People and Infrastructure
    Supporting NOAA's people and infrastructure are the most important 
pieces of the budget to me personally. This area focuses NOAA on budget 
and performance integration, human resources, employee training and 
retooling. For NOAA, the most critical aspect of this is providing 
adequate support and resources for our employees. This includes the 
$86.1M requested for adjustments to base, or ATBs, to cover the 1.5 
percent pay raise as well as other inflationary increases. The ATBs 
also include funding for NOAA Corps health benefits.
    The other important component in this area is infrastructure. 
Funding for infrastructure items ensures that, among other things, NOAA 
ships and aircraft are available to support missions and program 
requirements for all facets of the organization. NOAA is requesting an 
increase of $3.0M, for a total of $11.3M for the NOAA Satellite 
Operations facility in Suitland, Maryland. These funds will be used for 
above standard costs, moving people into the new facility, ensuring 
continuity of operations, and initial rent costs. There are also 
requests for operations and maintenance funds for NOAA ships, such as 
$2.2M for the VINDICATOR and $2M for the OSCAR DYSON, which I mentioned 
earlier. Also, $1.4M is included in this goal for regulatory and safety 
upgrades to NOAA aircraft.
    NOAA satellites provide support to programs included under each of 
the four programmatic goals. An additional $56.4M is included in the FY 
2005 Budget Request to continually maintain and improve NOAA's system 
of polar-orbiting and geostationary environmental satellites. The 
additional $31M requested for NPOESS, for a total of $307.6M, is the 
Department's contribution to the development of the converged Military 
and Civil operational polar systems.
Climate Goal (Request $369.3M, Decrease $3.2M)
    The first of NOAA's four programmatic goals is climate. The focus 
of programs that fall under this strategic goal is to enable society to 
better respond to changing climatic conditions. Decision makers at all 
levels need a reliable structure and process for receiving accurate, 
timely and relevant climate information to guide them in managing 
scarce resources, maximizing benefits and minimizing negative impacts 
of climate variability.
    One of the most notable climate programmatic priorities in the 
Administration's FY 2005 Budget Request for NOAA is the funding for the 
NOAA portion of the Climate Change Research Initiative (CCRI). CCRI is 
an interagency program designed to study areas of scientific 
uncertainty with regard to climate and identify priority areas for 
investment of scarce research dollars among the program's partners. It 
is the near-term focus of the Climate Change Science Program I 
described at the start of this testimony. CCRI is composed of several 
initiatives orchestrated by the interagency partners, but all the 
participants and programs share common aims: to reduce uncertainties in 
climate science, improve climate modeling capabilities, and develop 
research and data products that facilitate the use of scientific 
knowledge to support policy and management decisions. The request for 
the NOAA portion of the CCRI program is $64.2M, an increase of $27.1M.
    NOAA is working with our national and international partners to 
develop an end-to-end multi-faceted system that integrates observations 
of the key atmospheric, oceanic and terrestrial variables that 
influence climate; uses the improved understanding of these variables 
to create more reliable climate predictions; and establishes service 
delivery methods that respond to changing user needs with the most 
accurate and useful information possible.
    The Administration is requesting increases for several of the 
programs included in this strategic goal, including an increase of 
$6.5M, for a total of $9.0M, for the implementation of a Carbon Cycle 
Atmospheric Observing System focused on North America. This system will 
help determine carbon dioxide sources and sinks in and around the 
United States in order to meet one of the goals of the interagency U.S. 
North American Carbon Program. An additional $6.5M is included for the 
Aerosols, Clouds, and Climate Change: Observations and Predictions 
program for a total of $8.6M, which will provide funding for a new 
five-year observation program designed to quantify how the interaction 
of aerosols and clouds influences climate change. An additional $10.7M 
is included in this area to build a Sustained Ocean Observing System 
for Climate for a total of $17.3M. This additional funding will advance 
this system to 53 percent completion, continuing the multi-year 
international plan for a complete ocean climate observing system by 
2010. In addition, $3.4M is included for the Comprehensive Large Array 
Data Stewardship System (CLASS) for a total of $6.6M. CLASS provides 
progress towards improvements in NOAA's capability to archive and 
access large data sets from observation platforms, such as satellites, 
radar, and ocean observation systems.
Ecosystem Goal (Request $ 1,158.2M, Decrease of $223.9M)
    The focus of the ecosystem goal is to protect, restore, and manage 
the use of coastal and ocean resources through an ecosystem approach to 
management. An ecosystem approach to management is defined as 
management that is adaptive, geographically specified, takes account of 
ecosystem knowledge and uncertainties, considers multiple external 
influences, and strives to balance diverse societal objectives. The 
transition to an ecosystem approach to management needs to be 
incremental and collaborative. Coastal and marine waters support over 
28 million jobs, generate over $54B in goods and services, and provide 
a tourism destination for 180 million Americans each year. The value 
added to the national economy by the commercial fishing industry is 
over $28B annually. Within this context, NOAA is working with its 
partners to achieve a balance between the use and the protection of 
commercial and recreational resources to ensure the sustainability, 
health and vitality of these resources for this and future generations.
    Some of the notable funding increases under the ecosystem goal 
include the $33M provided for the acquisition of a third Fisheries 
Survey Vessel. Acquisition of a third state-of-the art vessel will 
provide higher quality series surveys and improve our data collection 
capabilities.
    An additional $10M is provided for the Pacific Salmon Fund, for a 
total of $100M, which will be used to supplement state and Federal 
programs and promote the development of federal-state-tribal-local 
partnerships in salmon conservation efforts and habitat restoration 
projects. The $2M included in the ecosystem goal for Klamath River 
Basin coho salmon research and recovery activities will increase our 
capacity to conduct research and implement restoration projects to 
benefit recovery of ESA listed coho salmon in the Klamath River basin.
    An increase of $4M is provided for Marine Fisheries Stock 
Assessment improvement for a total of $18.9M. This program aims to 
improve ecosystem approach to management of marine resources through 
better monitoring using new acoustical fish surveys, increasing the 
precision of specific assessments by up to 40 percent, and reducing 
potential damage to marine habitat and fish stock. This funding will 
also provide additional charter vessel days-at-sea, and a data 
acquisition system for use onboard Fisheries Survey Vessels and charter 
research vessels.
    An additional $2M is provided for the Strengthen Living Marine 
Resource Monitoring initiative, providing an additional 250 days at sea 
for stock assessments. Funds are also provided for protected resources, 
including $1M for recovery plan development and $1M for protected 
resource stock assessments, which will enable NOAA to conduct the 
additional surveys and population assessment on whales, loggerhead sea 
turtles and other key species required to obtain data and improve the 
precision of predictive models. NOAA also requests an increase of $9.9M 
in FY 2005 for a total of $22.5M to Expand and Modernize Observer Data 
Collection. This will allow NOAA fisheries to continue funding New 
England Groundfish observers and expand coverage into other important 
fisheries.
    An increase of $1.8M is also provided to fund the conversion/
enhancement to the NOAA vessels MCARTHUR II and NANCY FOSTER for 
scientific instrumentation. The Administration is also requesting an 
additional $5.9M for the vessel monitoring system, for a total of 
$9.3M, which will improve NOAA's ability to monitor fishing activities 
and compliance with regulations.
    NOAA is also requesting $1.2M to participate in the White Water to 
Blue Water initiative, a U.S. led partnership among governments, 
international financial institutions, the private sector, non-
governmental organizations and others, that was announced at the World 
Summit on Sustainable Development in 2002. U.S. participation is 
jointly lead by NOAA and the State Department. NOAA, with its expertise 
in coastal zone management, marine science, monitoring and fisheries 
management, is a key U.S. agency in the mix of entities needed to bring 
White Water to Blue Water to fruition. The goal of this partnership is 
to establish sound ecosystem approaches to management in coastal 
countries, which in turn will promote healthy marine and coastal 
ecosystems, forming the basis for vibrant, stable, and secure 
economies. The initial phase of White Water to Blue Water activities 
are taking place in the wider Caribbean region, including the Gulf of 
Mexico.
Weather and Water Goal (FY05 Request $1,410.9M, $50.8M Increase)
    Another of NOAA's important mission goals is to serve society's 
needs for weather and water information. Bridging weather and climate 
time scales, we will continue to collect environmental data and issue 
forecasts and warnings that help protect life and property and enhance 
the U.S. economy. On average, hurricanes, tornadoes, floods and other 
severe weather events cause $11B in damages yearly, and directly impact 
both public safety and the national economy. Nearly one-third of the 
total U.S. economy is weather sensitive. In recognition of this fact, 
NOAA's role in observing, forecasting and warning of severe 
environmental events has expanded. We are strategically positioned to 
conduct sound science and provide integrated observations and 
predictions to support decision makers at the local, state, national 
and international levels. In recognition of this important role, NOAA 
will continue to increase accuracy and lead time of severe weather 
warnings and work to increase customer satisfaction with and benefits 
from NOAA information and warning services.
    This goal includes $5.5M for the Air Quality Forecast Initiative. 
This initiative is a cooperative effort with the U.S. Environmental 
Protection Agency (EPA) and state and local agencies. Under this 
initiative, NOAA will provide operational air quality models and 
generate forecasts of pollutant concentration fields, which the EPA 
will interpret and disseminate to state and local users. Per our 
agreement with the EPA, in 2004 the National Weather Service (NWS) will 
establish an operational air quality forecast capability for ozone over 
the Northeastern United States (New York and New England). NOAA plans 
to expand ozone forecast capability to the entire United States by 
2009. Air quality forecast products will be issued by the NWS National 
Centers for Environmental Prediction (NCEP) through their modeling 
capability, and will be available over the internet.
    Funding requested for the National Weather Service 
Telecommunication Gateway (NWSTG) Legacy Systems, $0.87M for a total of 
$3.7M, will enable NOAA to complete a two-year effort to replace the 
NWSTG switching system and repair and update the associated facilities. 
Completing the system upgrade will permit increasing the volume of data 
that can be collected from running higher resolution weather prediction 
models, and the delivery of critical products to field offices, 
emergency managers and general users.
    The $1.4M requested for the Modernization of the Cooperative 
Observer Network provides near real time surface weather data relating 
to temperature, precipitation and soil moisture, which is important in 
improving drought monitoring, daily temperature forecasts and climate 
monitoring. This data is obtained through the use of state-of-the-art 
measurement, monitoring, and communication equipment. With this 
modernization, NOAA expects to improve daily temperature forecasts by 
1.5 degrees, saving the U.S. economy over $1B per year in energy 
production costs.
    Another important initiative is the Coastal-Global Observing System 
(C-GOOS) ($2.0M requested), which will provide new ocean measurements 
that will demonstrate the effects of climate changes on coastal 
communities, improve ocean condition forecasts, promote biological and 
chemical water sampling, provide information on locations of marine 
protected or endangered species and monitor coral reef health. This 
initiative will leverage and support the use of our existing network of 
weather buoys to support NOAA's ocean and ecosystem missions.
Commerce and Transportation (FY05 Request $252.1M, $3.4M Increase)
    The fourth NOAA strategic goal recognizes the crucial lifeline 
America's transportation systems are for our Nation's economy. NOAA's 
information products and services are essential to the safe and 
efficient transport of goods and people on the sea, in the air, on land 
and through inland waterways. More accurate and timely warnings of 
severe weather events, effective marine navigation products and 
services and improved positioning data can better support the growing 
commerce on our roads, rails, and waterways. Reduced risk of marine 
accidents and oil spills, better search-and-rescue capabilities, and 
other efficiencies derived from improved information and services could 
be worth over $300M a year in economic benefits. NOAA is committed to 
improving the accuracy and timeliness of our marine forecasts through 
the use of real time oceanographic information, and the maintenance of 
a consistent, and timely positioning network that promotes safe and 
efficient maritime navigation, aviation, and ground transportation.
    The $2.0M requested for the Electronic Nautical Charting (ENC) 
Program will allow NOAA to develop 120 new ENCs in FY 2005 for a total 
of 580 by the end of that fiscal year, working towards a total of 1,000 
ENCs by 2009. The $2.7M requested for the National Water Level 
Observers (NWLON) network will provide real time data from 175 NWLON 
stations to all 150 major seaports, and ensure 100 percent operational 
availability by FY 2009. The request sustains funding for the aviation 
weather initiative at $2.5M, which will help NOAA improve vital 
aviation weather warning and forecast products.
NOAA Management Improvements
    The goals included in the FY 2005 Budget Request contribute to the 
development and management of ``One NOAA.'' I am very pleased to report 
to you on the development of a Matrix Management system for several 
NOAA programs that cross the traditional, stove-piped, NOAA line office 
structure. Matrix management of these programs ensures that our scarce 
financial resources are used and invested wisely by the entire NOAA 
organization on behalf of our Nation. The NOAA programs currently 
participating in the matrix management system include: Coral Reefs, 
Habitat Restoration, Ocean Exploration, Climate and Homeland Security.
    We have established several Councils with existing resources, as a 
new and evolving management approach that creates a ``virtual 
headquarters'' without increasing NOAA staff. The Councils are 
comprised of NOAA senior officials acting as a ``corporate body'' that 
reviews options and provides recommendations to NOAA management. Some 
examples of these Councils include the NOAA Ocean Council and the NOAA 
Research Council.
Transition of Research to Operations
    In FY 2005, NOAA is seeking to develop an institutionalized 
mechanism for transferring research products into operations and 
sustaining their production to be continually responsive to stakeholder 
needs. NOAA will develop a more sophisticated, integrated view of 
scientific research, including assessment, product development, and 
communication. This will position NOAA to make investments today that 
will serve the information needs of the next few years and decades.
    The NOAA Research Review Team, a blue ribbon panel, was established 
in 2003 under the auspices of the Science Advisory Board (SAB) as a 
Federal Advisory Committee Act (FACA) Committee, which allows outside 
entities to participate in this team. The team was tasked with 
reviewing the research enterprise in NOAA and recommending ways to 
improve its efficiency and effectiveness, as directed by the Conference 
Report accompanying the FY 2004 Consolidated Appropriations Act. The 
Review Team will be making recommendations on how to establish stronger 
links between NOAA's research programs and NOAA operational units, and 
assessing the relevancy of NOAA's research programs to the needs of the 
operational units.
    The Research Review Team will present its findings to the NOAA 
Science Advisory Board in two reports. The first report was posted on 
the SAB website in January for public comment. The SAB also held a 
meeting on January 6, 2004 to discuss the Review Team Preliminary 
Report. The second report is scheduled to be available by May 1, 2004.
Status of NOAA Program Review Team (PRT) Recommendations
    The NOAA Program Review Team (PRT) convened in 2003 to review the 
organization from bottom to top. This was the most exhaustive review of 
the organization to date. Sixty-eight recommendations came out of the 
PRT process. To date, thirty-one of them have been fully implemented, 
including the institution of the Programming, Planning, Budgeting and 
Execution System (PPBES) process. PRT action is completed on twenty-
five recommendations, but more work is required before they can be 
fully implemented. The dozen remaining recommendations have not yet 
been completed.
New Management Process-Planning, Programming, Budgeting and Execution 
        System (PPBES)
    The principles of the PPBES process were followed very closely in 
constructing the FY 2005 Budget Request for NOAA, as a result of the 
PRT recommendations for revamping NOAA's strategic management process. 
PPBES is a formal, systematic structure for making decisions on policy, 
strategy, capability development/deployment, and resource allocation to 
accomplish NOAA's mission. Performance measures have been integrated 
into the FY 2005 Budget document through the PPBES process.
E-Government
    NOAA Fisheries will undertake two E-government efforts in FY 2005: 
Electronic Rulemaking and Electronic Permitting. The NOAA Fisheries 
Regulatory Streamlining and Modernization initiative will reduce the 
time required to review and process rules and regulations, increase 
public participation, and generate long-term cost savings. Electronic 
permitting will allow applicants to receive routine renewals and some 
initial fishing permits via the Internet, thereby increasing processing 
speed and reducing consumer costs.
Management Initiatives
    NOAA is also currently conducting nine separate studies to 
determine if 207 FTE positions in NOAA should be opened to outsourcing 
and competition. These studies will be completed this fiscal year, and 
the results will be shared with you to help you make final decisions on 
the FY 2005 Budget Request before you now.
Other Issues
Status of N-Prime Satellite
    The NOAA N-Prime satellite was damaged in an accident at the 
manufacturing plant on September 6, 2003. NOAA notified Congress and 
OMB immediately. At this point, the contractor's and NASA's on-site 
investigations have been completed, and corrective actions have been 
implemented at the contractor's facility. NASA convened a Mishap 
Investigation Board because NASA provides contractor oversight for 
NOAA. NOAA led a team comprised of NOAA, DOD and NASA personnel to 
evaluate replacement options for the environmental measurements that 
were to come from the NOAA N' mission. The results are due this spring.
Ocean Commission Report
    The draft Ocean Commission report was released to the Nation's 
Governors on April 20, 2004. NOAA is working very closely with our 
Federal agency partners and the Council on Environmental Quality to 
prepare the Administration's response to the report in accordance with 
the Oceans Act of 2000. NOAA has already begun reviewing the draft by 
sharing the task of review broadly across NOAA, making the best use of 
the NOAA Goal Teams, Program Managers, Matrix-Managers, Line and Staff 
Offices, and Councils to ensure a comprehensive response to this report 
across the organization. This information will feed into the broader 
Administration process.
Administrative and Financial Study
    In FY 2003 NOAA leadership commissioned Booz-Allen Hamilton (Booz-
Allen) to conduct a study of the effectiveness of NOAA Finance and 
Administration (NFA) and recommend ways to improve the quality and 
efficiency of our financial and administrative functions. Several PRT 
recommendations had underlined the need to improve our financial and 
administrative service functions. The study began in September 2003 and 
was managed by a team of representatives from line offices, 
headquarters, field administrative offices, and the Department of 
Commerce. Booz-Allen delivered their report to NOAA on January 31, 
2004.
    My goals are to ensure that we have the appropriate service 
delivery and organizational model; that we use our resources wisely; 
and that we balance these aims with the interests of employees who will 
be affected by change.
Conclusion
    NOAA's Fiscal Year 2005 Budget Request invests in our priority 
areas: people and infrastructure, climate, ecosystems, commerce and 
transportation and weather and water. This budget keeps NOAA on its 
course to realize its full potential as one of the Nation's premier 
environmental science agencies. The new goal-oriented budget structure 
reflects NOAA's business approach as an integrated NOAA team which 
responds to the needs of our customers and employees. NOAA is also 
doing its part to exercise fiscal responsibility as stewards of the 
Nation's trust as well as America's coastal and ocean resources. NOAA 
will continue to respond to key customers and stakeholders, and will 
continue to leverage its programs and investments by developing those 
associations that most efficiently and economically leverage resources 
and talent, and that most effectively provide the means for 
successfully maintaining NOAA mission requirements.
    This concludes my statement, Madam Chair. Thank you for the 
opportunity to present NOAA's Fiscal Year 2005 budget. I would be happy 
to respond to any questions.

    Senator Snowe. Thank you, Admiral Lautenbacher.
    Let us begin with the issues that I raised regarding the 
regulations and in response to Amendment 13, what's going to 
happen on Saturday, for the New England groundfishery. This is 
really going to have an effect. As I said earlier, I think the 
fishing community was stunned by the fact that these 
regulations have been finalized. I mean, they just simply 
couldn't believe that the agency would follow through with the 
original proposals when they were issued, a month or 60 days 
ago, I gather. And then they received the final rules on, I 
think, Wednesday, and in going through those 500 pages, they 
discovered these two initiatives.
    So let's start with the first rule, having to return to 
port. Beginning Saturday, if fishermen are out at sea, as I 
understand it, they have to return to port. Is that correct?
    Admiral Lautenbacher. It's correct only for fishing vessels 
that are in the U.S./Canadian joint area of Georges Bank. We 
have, finally, a firm agreement with Canada on quotas for that 
particular area that we share, and the counting of those quotas 
begins on May 1. So if there's no way to stop and start what 
they're doing now, then the fish they would have onboard would 
then be counted in the quota for the next year.
    They're hard quotas. And so the object of this 1 May 
deadline was to allow whatever they caught, to not count. This 
was done to try to protect the fishermen.
    Senator Snowe. Right.
    Admiral Lautenbacher.I understand that it is certainly an 
onerous burden, but the objective was to try to ensure that 
they were not penalized for fish they had caught before 1 May, 
when these hard quotas went into effect with Canada.
    Now, the agreement with Canada is to our benefit. Remember, 
the Canadians have not been exactly stellar in their management 
of their fisheries. In fact, they've collapsed to the point 
where there's not much fishing there. We've got to ensure that 
the areas where we're jointly taking fish from are not--I won't 
say overrun, but certainly are not unfairly disadvantaging U.S. 
fishermen by the Canadian fishermen in the area.
    This rule provides a hard quota to allow us to continue to 
manage and restore the fisheries in that area. So it's only 
that area that we're talking about for that 1 May deadline.
    Senator Snowe. So how many fishing boats would we be 
affecting that would be in that situation? There isn't another 
way to count them on the fish that they get, up until May 1?
    Admiral Lautenbacher. It's hard to say, but we think there 
are probably, you know, over a hundred to maybe 150 boats that 
may be in that area or may want to be in that area. So it's 
that one area, and the object is to try to, as I have said, 
have sensible management, ensure that that area is allowed to 
be rebuilt, and that Canada is fairly burdened with the same 
set of rules that we have so that our fishermen do not lose out 
on maintaining and building stocks in that area.
    It's done to protect our fishermen, and it is unfortunate 
that it's caused a major issue. We will do our best to see if 
there's something we can do to ease the situation. I understand 
the disruption to the fishing.
    Senator Snowe. Right.
    Admiral Lautenbacher. We'll go back and look at the 5-day 
notice. The objective of the 5-day notice--according to the 
agreement that we have with Canada to limit fishing in that 
area for Canadians, as well as Americans--is that we have to 
have 5 percent observer coverage, which means we have to know 
how many boats are there so we can get observers onboard. And 
right now, that's what our system estimates as the time it 
takes to have the observer coverage that we need. Those are the 
limitations.
    Senator Snowe. I just think that's going to be very, very 
difficult.
    Admiral Lautenbacher. I agree.
    Senator Snowe.I mean, it's not impossible, I suppose. But, 
really, given what these fishermen are going to be going 
through just with the burdens of the Amendment 13 reduction of 
days, and then to have to plot out, literally, 5 days in 
advance, exactly where they're going to be, in that section of 
the Georges Bank, you know, irrespective of what the weather 
conditions might be. They won't know 5 days out. Now, they can 
get forecasts, but we all know how reliable those advanced 
forecasts are. Things change. I mean, this allows for no 
flexibility. So I just think it's going to make it very costly 
and very difficult, and potentially dangerous, as well.
    Is there no other way? What kind of response did the agency 
receive from the fishing community during the public comment 
period of time in the proposed rulemaking?
    Admiral Lautenbacher. I will go back and check. I didn't 
see any though, again, I didn't read all the comments. We had a 
lot of comments on Amendment 13, but there were not what I 
would call, as far as I could tell, an undue number against 
this one, versus some of the others. I mean, there were 
comments on a wide variety of the issues in Amendment 13, and 
this is the first time, quite frankly, in the last day, that 
this one has come up to me as a major issue.
    I understand it's a major issue.
    Senator Snowe. Right.
    Admiral Lautenbacher.We'll go back and work on it, and see 
what we can do too.
    Senator Snowe. Well, as I understand it, the Council was 
strenuously opposed to it. I know that the reaction on the part 
of the fishing industry in Maine was they thought it wouldn't 
see the light of day. That's why they were so surprised to see 
it in final form.
    Admiral Lautenbacher. OK.
    Senator Snowe.I would hope that we can redesign that. I 
just think that it is going to be very difficult to implement. 
They're very upset about it, and rightfully so, given all the 
safety implications. Especially upset are our fishermen, who 
have to travel long distances to reach the Georges Bank, under 
circumstances where the fishing days are already being 
substantially reduced. To have this additional pressure and 
burden, I just think it makes fishing there virtually 
impossible. I appreciate your saying that there may be some way 
to redesign this, and I am urging you to do so. I just think we 
have to do everything that we can.
    We just cannot make the situation worse, and this clearly 
does. And if NMFS didn't get such a strenuous reaction to it, 
it's simply because, as the fishermen told us yesterday, they 
just simply didn't expect this to happen. They just couldn't 
believe it would happen. So I hope that you will reconsider, 
and see if there's any possibility of changing the rule. And 
the other issue--is there a possibility that you can do this 
before May 1? What are the requirements now that this is in the 
final rule? I understand that returning to port is not 
required, is that correct?
    Admiral Lautenbacher. I have to get back to you with more 
information, because I'm just being briefed on this myself.
    Senator Snowe. OK.
    Admiral Lautenbacher.I understand that they don't have to 
report back in on May 1, but the issue then is, how will their 
catch be counted, in terms of the quota? If they've caught a 
lot of fish before May 1, and then they're only out a couple of 
days, and come back in, then that all gets counted on the next 
year's quota, which is unfair, as well. So the issue is to try 
to figure out how to balance these requirements.
    Senator Snowe. There is no way to separate it out, I guess?
    Admiral Lautenbacher. Well, let me ask, and we will get 
back to you.
    Senator Snowe. OK. I would appreciate that.
    [The information requested follows:]

    Question. What sort of comments did the agency receive regarding 
the 5 day observer notification requirement?
    Answer. NOAA Fisheries received three comments from industry 
members and one set of comments from the New England Fishery Management 
Council that the requirement to notify the observer program 5 days in 
advance of the trip was excessive and that 48 hours notification should 
be sufficient (see below for the actual comments).
    NOAA's response to the comments received is as follows: NOAA 
Fisheries' observer program requests five-day notification in order to 
have adequate time to contact and deploy observers. However, NOAA 
Fisheries is currently considering modifying this notification 
requirement.
    Actual comments that NOAA Fisheries received on the 5-day 
notification issue:
Trawler Survival Fund and Associated Fisheries of Maine:
    ``There is also concern over the requirement that vessels give 5 
days notice prior to fishing in the US/CA Areas and polling of their 
VMS `at least twice an hour.' The former requirement is simply 
impractical. Vessels need to be able to make trips when the weather and 
fishing conditions permit, including times when back-to-back trips are 
a necessity. This flexibility is especially important given the 
sacrifices the industry is being called upon to make, and in light of 
the agency's responsibilities under National Standard 10. The TSF and 
AFM suggest that NMFS's need to insure adequate observer coverage in 
this area be met by an annual declaration of a vessel's intent to fish 
in the US/CA Areas.''
Jim Odlin:
    ``A five working day lead time to notify National Marine Fisheries 
Service to participation in the U.S./Canada area is excessive and does 
not reflect the way fishing vessels operate or give due consideration 
to weather forecast that far out. I suggest 48 hours would be an 
appropriate lead-time to notify NMFS of participation.''
New England Fishery Management Council:
    ``The requirement to notify NMFS five days prior to a US/CA area 
trip is excessive and does not reflect the way vessels operate or give 
due consideration to weather requirements. This should be adjusted to 
48 hours.''
State of Maine Department of Marine Resources:
    ``With respect to observer coverage for the U.S./Canada management 
areas, we note that the NMFS proposes to require vessel operators to 
provide five working days advance notice of intent to fish in those 
areas. We recommend that this requirement be reduced to two days 
advance notice and require all vessels that intent to fish there to 
declare their intent prior to the beginning of the fishing year.''

    Admiral Lautenbacher.I don't know exactly what we can do, 
but I understand the issue, and I will get more information.
    Senator Snowe. OK, because I do think it is essential, 
knowing what the response from fishermen has been, and I know 
you understand what a critical period this is for the 
groundfish industry throughout New England.
    Admiral Lautenbacher. Yes. I do understand.
    Senator Snowe. We just don't want to further aggravate the 
circumstances that they're facing.
    On that score, I know NOAA's been very helpful in trying to 
look at some mitigation measures, and I'd like to know what the 
status is of some of these. For example, special-access permits 
targeting haddock, are another way of mitigating these 
problems, but they have not been part of the program. What is 
the status of that? I'd like to know how B-days are working, as 
well as latent effort. How are those going to be advanced 
through NOAA and through the next framework adjustment? What's 
the time-frame here?
    Admiral Lautenbacher. I understand that that is still being 
worked out at this point. I don't have a time-frame on it. I 
will get back to you with a time-frame of when we expect to 
finish with the B-day and other initiatives.
    Senator Snowe. What are your requirements? The reason I ask 
is because May 1 is this weekend and the clock is ticking now. 
Obviously these options would help to ameliorate, to some 
extent, the effects of Amendment 13. So what are your 
requirements, in terms of the timetable?
    Admiral Lautenbacher. Well, what I know is that there have 
been some B-day proposals that have been discussed, and the 
council has worked on them, but, as far as I know, we haven't 
come to any that seem to fit everyone's parameters at this 
point. So I don't know that we have a good resolution yet. 
There have been proposals, but there has not been any 
agreement.
    It's being worked on, but we don't have a final resolution.
    Senator Snowe. Is the discussion between NOAA and NMFS and 
the Council?
    Admiral Lautenbacher. Yes. It's between the Council and 
NOAA.
    Senator Snowe. Is it possible to get this on a fast track?
    Admiral Lautenbacher. I will look into that.
    Senator Snowe. Because it's a matter of urgency, as you 
well know, and we have to move mightily. I think any 
bureaucratic impediments in this whole communications effort 
between the agency and the Council and the industry need to be 
resolved We've got to get this done. It's as simple as that. We 
need to finalize a resolution on those issues, at the very 
least. That's the minimum that we need to do, and I will do 
everything within my power to help that along, because time is 
of the essence. I think the industry's going through enough, 
and this is the minimum that we can do. So I think we've got to 
get these issues in place. I know they'll resolve the steaming-
time question, as well, because of the inequity that it 
presents to the industry, and in Maine especially. It's not 
going to require them steaming longer distances to the Georges 
Bank, but it's going to be counted against them in their 
fishing days, which are already drastically reduced. So we've 
got a lot of problems with Amendment 13, and I want to make 
sure that we've got a very efficient, expeditious, agency 
response to the timeliness and the urgency of these matters.
    Admiral Lautenbacher. I understand, and I will get back to 
you on these issues very shortly.
    [The information requested follows:]

    Question. What is the current status of B-DAS? What mechanism is 
being used to implement these B-DAS, how long will it take, and can the 
process be sped up?
    Answer. On May 12, 2004, The New England Fishery Management Council 
(Council) voted to submit Framework Adjustment 40 A (FW 40A) to the NE 
Multispecies Fishery Management Plan to the National Marine Fisheries 
Service (NOAA Fisheries). The framework includes additional 
opportunities for the use of B-days-at-sea (DAS), i.e., additional DAS 
that could be used to target relatively healthy groundfish stocks for 
the purpose of achieving optimum yield and to help mitigate economic 
and social impacts of Amendment 13. Specifically, FW 40A includes two 
Special Access Programs (SAPs) on Georges Bank that would allow vessels 
to target haddock using B Regular or B Reserve DAS, as well as a 
Regular B DAS pilot program that would allow the use of Regular B DAS 
throughout the management area, provided vessels do not exceed very 
small trip limits of groundfish species of concern. In addition, FW 40A 
proposes to modify Amendment 13 by providing vessels with the ability 
to fish both inside and outside of the Western U.S./Canada Area during 
the same trip. The Council is currently working on completion of the 
required analyses and documents, and hopes to submit FW 40A to NOAA 
Fisheries no later than July 1, 2004. Should FW 40A be approved by NOAA 
Fisheries, the agency anticipates implementing the approve measures 
through proposed and final rulemaking in the fall 2004.

    Senator Snowe. OK. how do you propose to approach the U.S. 
Commission on Ocean Policy and some of its mandates, such as 
strengthening NOAA, as an agency, concerning the resources of 
the ocean and having a much more rigorous cohesive, and 
coherent Federal response to this current challenges? Frankly, 
I think that they have done an outstanding job in identifying 
the issues that need to be examined and explored, and, 
hopefully, many of them will be adopted. The Commission's 198 
recommendations are obviously going to cost billions of 
dollars. I think they've probably underestimated the cost. But 
I think, in terms of structure and framework and function on 
the part of the Federal Government, they are critically 
important for making a more efficient response to the way in 
which we deal with the major issues concerning the state of our 
oceans.
    How are you going about evaluating these recommendations? 
And what are the Administration and your agency going to do to 
determine which are the highest priorities and which are lesser 
priorities, and what you're going to support and not support?
    Admiral Lautenbacher. Yes, thank you.
    The CEQ, Council on Environmental Quality, under Jim 
Connaughton, has taken the lead for the government. We have set 
up an interagency review body that is looking at the report and 
developing a response for the President, for when we get the 
final draft from the Commission after the Governors have 
commented. It's out to the Governors now for comment. We're 
obviously very interested in what the Governors will say about 
the report, and that has to be taken into account.
    Inside of NOAA, as I've mentioned in previous years, we've 
set up a NOAA Ocean Council, so that we have a matrix 
management ocean team now that does ocean work for NOAA. It's 
under the leadership of Rick Spinrad, who's the head of the 
NOAA Ocean Service. We have gone through the Ocean Commission 
report internally, and we are working on its recommendations as 
you and I are sitting here talking today. So we've been very 
proactive. Our agency has supported the work of the Ocean 
Commission quite substantially in the last 2 years, providing 
staff, as well as testifying at their hearings. I think if you 
look at a number of the initiatives that are in our 
reorganization and in our budget, they are supportive of the 
types of things that the Ocean Commission wishes to happen.
    Government-wide, we have already created, a year ago, a 
Joint Oceans Subcommittee, working under the Office of the 
NSTC, the National Science and Technology Council. It jointly 
reports to me, as the Co-Chairman on the Committee on 
Environment and Natural Resources and to the Chair of the 
Committee on Science. So there is a Joint Oceans Subcommittee 
now that's connected to the White House, in addition to the 
NORLC, the National Ocean Research Leadership Council, which I 
chair as part of the National Oceanographic Partnership Program 
(NOPP) Act. Those things are working well.
    Within our strategic plan, one of the major initiatives is 
an ecosystem-based approach to management. We basically 
reorganized and created a team within NOAA--a system 
engineering effort, I would call it--to put together the pieces 
that have been disparate up til now. We took various fisheries 
management, corals, habitat restoration, all of the various 
stock assessments, and the research pieces, put them together 
and developed a cohesive plan for ecosystem-based approach to 
management. This budget is the first demonstration of the 
initial phases of that effort.
    Mike Sissenwine, who used to be the science director in New 
England as you might remember, is the head of all of that for 
NOAA. There's one person in charge. So we've put a team 
together, one person in charge, to cover the ecosystem pieces.
    As you know, we are conducting a research review. I have 
commissioned a research team headed by Berrien Moore, a 
distinguished scientist, to look at the way we do research and 
to ensure that it is being managed correctly, that we have the 
right partnerships, that we have the right framework in place. 
We're very much interested in ensuring our ocean research 
component is meeting all the needs that are stated for the 
country. So we are looking at the research part of NOAA very 
heavily.
    We have been working with the EPA, the Department of the 
Interior, the U.S. Fish and Wildlife Service, the Navy, NSF, 
and all of the other agencies to look at reorganization and the 
governance issues that are in the report. That's part of what 
this interagency council is looking at. And I think that there 
are, as I said, many ideas that are in the report that are 
compatible with the direction which we have been going. It 
doesn't mean that we're there or that I'm in a position today 
to give an Administration position on the report, but it is, in 
fact, very compatible with the types of things that we have 
already been thinking about.
    Senator Snowe. So do you expect to be prepared to give a 
response to those recommendations once the final report is 
issued, which I gather will be this summer?
    Admiral Lautenbacher. We are working hard to meet the 
mandates. The law requires, or allows, 90 days for the 
Presidential response once we get the final draft, as well as 
for congressional response. Our goal is to make sure that we 
respond within those 90 days. I mean, that's been stated to me 
and stated to the interagency working group, and that's our 
plan. We want to respond within the time limits that have been 
set forth.
    Senator Snowe. Given the fact that we have an 8 percent 
decrease from the previous year's funding level, that obviously 
is going to have an impact on a number of programs. And as I've 
been reviewing the proposed budget, I am concerned about some 
of the programs. For example, as I mentioned earlier, the 
Saltonstall-Kennedy grants which are based on a tax. Are you 
redirecting those funds to other programs to offset the overall 
losses in funding? That's a program that the fisheries have 
been depending upon for, as I said, more than three decades. 
It's very helpful and beneficial to the industry and to 
scientists. And so I am really surprised that that was 
basically zeroed out in the budget.
    Admiral Lautenbacher. Well, I have to go back and look at 
the details of the Saltonstall-Kennedy grants program. Last 
year, we had a one-year bump that we used to take on a couple 
of rapidly developing issues. We used Saltonstall-Kennedy money 
to take care of those. This year, it wasn't felt that that was 
needed in the budget, so my understanding is that Saltonstall-
Kennedy funding is back where it was before we had that small 
bump last year. I will have to give you a more complete answer 
on it.
    [The information requested follows:]

    What is NOAA doing to redirect funds to the Saltonstall-Kennedy 
program?
    Answer: Funding for the Saltonstall-Kennedy (S-K) program comes 
from a percentage of the gross receipts collected by Department of 
Agriculture (and transferred to the Department of Commerce) under the 
customs laws on imports of fish and fish products. Part of this amount 
is appropriated to offset some of NOAA's costs related to operations, 
research, and facilities (OR&F), and the remainder is usually allocated 
for the S-K Program. The revised FY 2005 S-K transfer is $77.5 million 
(before the actual transfer amount was known, the President's FY 2005 
Budget projected a $79 million S-K transfer). However, based on 
appropriations from the past two years, the President's FY 2005 budget 
proposes using all of these funds for NOAA Fisheries OR&F. The FY 2003 
and FY 2004 President's Budget proposed providing funds for competitive 
S-K grants, but the FY 2003 and FY 2004 Appropriations Acts specified 
providing S-K funds only for non-competitive grants. The Appropriations 
Acts directed that these funds go to specific groups and projects 
without following the competitive S-K grant process, so this funding 
was not tracked under the S-K Program. Therefore, FY 2002 was the last 
year in which funds for competitive S-K grants were available and NOAA 
Fisheries has not redirected funds to this program for FY 2005.

    Senator Snowe. Well, if it does that'll be fine. That's not 
our reading of it.
    Admiral Lautenbacher.--I don't have a full accounting of 
Saltonstall-Kennedy funding for that support mechanism or that 
cash-generating method.
    Senator Snowe. The same is true for harmful algal blooms. 
Again--is funding zeroed out in their program? It's sort of 
moving in a contrary direction to what was identified in the 
U.S. Commission on Ocean Policy, let alone the potential 
impacts. If you look at various areas of the country, 
particularly Louisiana and the Great Lakes, it's a critical 
problem. Are we interpreting that budget request correctly?
    Admiral Lautenbacher. It's not zeroed out.
    Senator Snowe. The line items for harmful algal blooms is 
zero.
    Admiral Lautenbacher. It's being covered in other lines.
    Senator Snowe. But we need to know that. I mean, I would 
think that that would be a major priority at this point in 
time.
    Admiral Lautenbacher. We'll give you the breakout.
    It has been--let's see, I'm trying to go back. 
Historically, this was inside a Coastal Ocean Program and the 
Center for Sponsored Coastal Research, and then it was moved, 
in the 2004 line items, and now we have put it back into 
Coastal Ocean Program. There's five million dollars in the 
budget for harmful algal blooms. And I'm not particularly a fan 
of the budget line items that we have, but I assure you that 
there's money for harmful algal blooms. It's not been zeroed 
out.
    Senator Snowe. Well, I would think so.
    Admiral Lautenbacher.We will try to provide you with a 
cross-check of the tables to show where the money is. But there 
is money for harmful algal blooms, and it's certainly not our 
intent to zero out research on harmful algal blooms. All of our 
research activities are taking somewhat of a small hit because 
of the constrained resources this year, so it isn't that I can 
sit here and tell you that every research program is in whole, 
compared to the way it was last year; that's not true. But this 
is not zeroed out.
    Senator Snowe. Well, I think it would be important to 
delineate it. At least it indicates in the line item that it's 
zeroed out, if not in the overall budget. It's, as I understand 
it, $47.9 million for the Ocean Assessment Program base. But I 
think this program is so critical, I think it is essential to 
delineate it, to specify, particularly at a time like this.
    Admiral Lautenbacher. I agree.
    Senator Snowe.The Gulf of Mexico dead zone--it's going to 
cost more than a billion dollars to address that problem. So I 
think that it's going to be a vital environmental conservation 
issue for the future.
    Admiral Lautenbacher. Uh-huh. Just as a precursor, we have 
$5 million listed for harmful algal blooms, and about $4 
million listed for Pfiesteria and harmful algal-bloom rapid 
response. So there's at least that much money available for 
that research, and there are probably more on other lines, but 
this is what I have in the information in front of me today.
    I'll get you a complete listing of the money for harmful 
algal blooms.
    Senator Snowe. OK. I would appreciate that.
    [the information requested follows:]

    Question. Provide a breakout of all Harmful Algal Bloom money
    Answer. A total of $8,925K for Harmful Algal Bloom and Pfiesteria 
Research is included in the Ocean Assessment Program budget line of the 
NOAA/NOS FY 2005 Request.
    The FY 2005 request seeks to restore the funding provided in FY 
2003 for the two budget lines titled Harmful Algal Blooms ($4,968K) and 
Pfiesteria and HAB Rapid Response ($3,974K). No funds were appropriated 
on these budget lines in FY 2004.
    If NOAA's FY 2005 budget passes as requested, up to $2,000K of the 
requested $8,925K would be directed towards HAB research conducted by 
NOAA scientists at NOAA research facilities. The remaining $6,925 would 
fund competitively awarded, extramural, multi-year research through the 
NOAA ECOHAB and MERHAB programs conducted by NOAA's Coastal Ocean 
Program.

    Senator Snowe. I also wanted to examine some of the issues 
concerning Ocean Observation assistance. We obviously are 
working on enacting legislation to integrate the Gulf of Maine 
model into a national model. You know, the U.S. Commission on 
Ocean Policy--I don't know if you had a chance to evaluate that 
recommendation--but they're saying it will cost upwards of $652 
million a year. Would you agree with that figure?
    Admiral Lautenbacher. As an individual, from my previous 
experience, I'd say they're in the ballpark. Is that a NOAA 
estimate? No, it is not an official NOAA estimate. I have asked 
my organization to cost it, and we are working on that. I am 
also under the impression, from the Ocean Commission, that in 
July they will give us their cost figures so that we'll have a 
chance to look at them and determine if there are differences 
or what the backup for that is. But, from my personal 
experience, I believe that that is in the range of what it 
would take to do that work.
    Senator Snowe. Well, I think it's a critical priority. 
Ultimately, in the final analysis, given the valuable data that 
we can receive from that type of a network nationwide, it would 
be absolutely essential. It's in the budget at $17 million this 
year, but I think that request--obviously it's a far cry from 
what they're suggesting it will cost ultimately to integrate 
that into a nationwide system. So I appreciate your input on 
that.
    On abrupt climate change, as I understand it in looking at 
the program--and, again, now, it may be that we're reading your 
budget wrong and it's all based in some larger number here--but 
when you're talking about climate change, I know it is a high 
priority of yours, as well, Admiral--and a response to the 
National Academy of Sciences report on abrupt climate change 
and how it can happen, not on a gradual basis, but, rather, on 
a precipitous basis, and you see these sudden jumps, as they 
indicated, it's all the more important that we do all the 
research that we can. And I thought that the National Research 
Council's, report on this, back in December of 2001, was 
absolutely, I think, a vital report on where we need to go and, 
how alarming this problem is globally, and why we have to 
provide the leadership for it.
    So can you give me an idea of what you're doing on this in 
your budget? Because, as I understand it, the entire program 
for abrupt climate has been zeroed out, plus the Paleoclimate 
Program is out, as well, and the postdoctoral program--so there 
has been some major reductions in this area. Is that true?
    Admiral Lautenbacher. I wouldn't call them major 
reductions. There are reductions. There is a line called 
``abrupt climate change,'' which includes some seminar work and 
one other project, that has been zeroed out. Remember that we 
have increased funding for our Climate Change Research 
Initiative by $27 million. So, overall, the higher-priority 
items in the budget are covered.
    Now, regarding the abrupt climate change, there are a 
number of programs that are embedded in the rest of what we do 
that take into account abrupt climate change, so while that 
line is not there, there's a lot more money that is devoted to 
abrupt climate change. There are all the buoy monitoring 
programs, there are the ocean circulation programs, there are 
the Arctic research programs, there are the issues about the 
thermohaline conveyor belt. They are not called out as, 
specifically, ``abrupt climate change,'' because they're 
embedded in the whole study of ocean circulation and changes in 
the Arctic. So it's unfair to say that the program is zeroed 
out. This particular line item, which had the label of ``abrupt 
climate change,'' this was solely abrupt climate change--and it 
looked at a seminar type of workshop issue that was deemed as a 
lower priority than the other important work going on in 
climate. So it's not----
    Senator Snowe. Well, do you have----
    Admiral Lautenbacher.--we don't believe----
    Senator Snowe.--anything on the abrupt climate change? I 
mean how much are you spending in that area?
    Admiral Lautenbacher. It would be difficult to estimate, 
because it's wrapped up with climate change. And how much is 
``abrupt''--``abrupt'' is a, you know----
    Senator Snowe. But it is a significant dimension of the 
entire problem on global climate change. I mean, there's no 
question about it. I mean, that's the problem we're facing.
    Admiral Lautenbacher. And also, let me mention some of the 
other work that's going on. We have increased funding for the 
review of paleo records in ascertaining what's happened in the 
past to ensure that we understand what's possible to happen in 
the future. So there are probably about five to ten other line 
items that cover the subject of abrupt climate change, but it's 
part of those line items. It is not----
    Senator Snowe. Yes, see, it's hard to--I mean, it may well 
be true, but it's hard to really understand that that will be 
the effect of it, that you're going to have a targeted focus on 
abrupt climate change. It might be diffused among many 
programs. That's the point here. And I think this is a pivotal 
issue. Given what the report said here, it says, ``At present, 
there's no plan for improving our understanding of the issue. 
No research priorities have been identified. No policymaking 
bodies addressing the many concerns raised by the potential for 
abrupt climate change.''
    Even this Committee passed out a bill that would provide a 
hundred million dollars in March, on the issue of abrupt 
climate change. It's a whole new facet to this issue that, 
frankly, heretofore, has not been focused on, and so it bothers 
me that that's happening. It may well be part of some of these 
other programs, but it isn't being given the high-level 
attention and the priority by having its own category--I think 
it deserves its own category, just like harmful algal blooms. 
They're major issues that you say are so important, are so 
critical, and so we've got to separate them out, delineate 
them, because we don't want any misunderstanding whether we are 
giving them our full attention. But once they're merged and 
submerged into various programs and agencies, you have a hard 
time sifting through it, so you don't know if anybody's giving 
it any attention.
    Admiral Lautenbacher. I assure you that its being given 
attention, and we'll give you a rundown of where it is given 
attention and what money has been devoted to those areas.
    [The information requested follows:]

    Question. What is the funding break-out for Abrupt Climate Change 
research?
    Answer. See the following chart for a complete breakdown of funding 
in the FY05 budget for Abrupt Climate Change research.

                            NOAA Abrupt Climate Change Contributions (FY04 and FY05)
----------------------------------------------------------------------------------------------------------------
                                       FY05  Pres.                                         Funding  (Program:
      Category        FY04  Omnibus       Bud.                  Description                   Budget Line)
----------------------------------------------------------------------------------------------------------------
Programs
----------------------------------------------------------------------------------------------------------------
CORC/ARCHES                     $2M              $0  Grant to Columbia University       Understanding: Climate
                                                      Lamont-Doherty Earth Observatory   and Global Change (page
                                                      for studies of abrupt climate      3-98 of Bluebook).
                                                      change using paleo and modern
                                                      observations and models.
----------------------------------------------------------------------------------------------------------------
Monitor
----------------------------------------------------------------------------------------------------------------
--Ocean currents              $0.3M           $0.7M  Monitor changes in the             Observations: Ocean
                                                      thermohaline circulation at key    Observations/Ocean
                                                      locations: Gulf Stream,            Systems (page 3-99 of
                                                      Greenland Current. Assume          Bluebook)
                                                      responsibility for long-term
                                                      Weddell Sea observations from
                                                      CORC/ARCHES in FY05.
----------------------------------------------------------------------------------------------------------------
--Ocean                     See Footnote (*)         Monitor changes in the global      Observations: See
 thermohaline                                         thermohaline circulation and its   Footnote (*)
 circulation                                          role in abrupt climate change
----------------------------------------------------------------------------------------------------------------
--Methane                     $1.3M             $1M  Global methane monitoring for      Carbon Cycle: CMDL,
 clathrates                                           abrupt changes in emissions from   Laboratories & Joint
                                                      methane clathrate (hydrate)        Institutes (page 3-98
                                                      deposits on continental shelves    of Bluebook)
                                                      and thawing of permafrost in the
                                                      Arctic regions.
----------------------------------------------------------------------------------------------------------------
--Arctic Ocean                $0.7M           $0.7M  Measure and model changes in heat  Observations: Arctic
                                                      and fresh water fluxes from the    Research Initiative--
                                                      Arctic to the North Atlantic and   SEARCH (page 3-99 of
                                                      monitor sea ice thickness in the   Bluebook)
                                                      Arctic.
----------------------------------------------------------------------------------------------------------------
Models
----------------------------------------------------------------------------------------------------------------
--Climate                     $0.5M           $0.5M  Partnership between NOAA GFDL and  Projections: CMDL,
 reconstruction                                       NOAA Joint Institute at Columbia   Laboratories & Joint
                                                      U. Lamont-Doherty Earth            Institutes (page 3-98
                                                      Observatory to model climate       of Bluebook)
                                                      over the past 2000 years and
                                                      identify abrupt changes.
----------------------------------------------------------------------------------------------------------------
* Global ocean thermohaline transports are monitored through global hydrographic surveys and more frequent
  measurements with the Argo profiling float program. However, monitoring the thermohaline circulation is only
  one of several objectives for these observations. Consequently, it is not possible to separate out their cost
  to monitor abrupt climate change. The NOAA contribution to the global hydrographic survey is $1.1M per year
  and is funded in the Ocean Observations/Ocean Systems (page 3-99 of Bluebook). The NOAA contribution to the
  Argo program is $10.5M per year. (page 3-99 of Bluebook: $7.3M in ARGO-related costs [considered part of Ocean
  Observations/Ocean Systems] and $3.2M in Climate Change Research Initiative)


    Admiral Lautenbacher. It is not something that we take 
lightly. It is a serious part of the climate change research 
plan that I talked about being delivered, and we are devoting 
resources and----
    Senator Snowe. Well----
    Admiral Lautenbacher.--technical expertise to it.
    Senator Snowe. OK. But, I received a letter, from Dr. Dunn, 
of the University of Maine Climate Change Institute, that says 
that--on the CORC-ARCHES Program and the Office of Global 
Programs have been zeroed out. The University of Maine's been 
working on this program since 1992. Again, it's all about 
understanding these huge fluctuations and swings in climate 
change.
    So, in any event, I would appreciate that, because I think 
this not the time to be retreating. And we may not be, but if 
it is diffused in part of these programs, it's just really hard 
to tell to what extent it's getting the high-priority attention 
that it deserves.
    Would you say overall your budgeting increases are in 
climate change?
    Admiral Lautenbacher. The whole category of climate change 
in our strategic plan, which is one of the four big--you know, 
every dollar in NOAA is sorted into those four categories, 
besides the support--it is about $2 million different. So it's 
roughly the same. There has been re-prioritizing in there to 
ensure that we support the President's Climate Change Research 
Initiative, and that is up $27 million. The Initiative covers 
the critical issues that we need to address for the 
policymakers in this country to decide what to do about climate 
variability and potential climate change. They include ocean 
observing, which is, I know, a priority of yours. They include 
carbon monitoring and a system to find out what's going on with 
the carbon; and aerosols, which is one of the major 
uncertainties regarding what's going on in our atmosphere. And 
they also include a data-handling system so that we can provide 
the kind of data simulation, data archiving, and the usage of 
data to provide the basis for scientific activity. So those 
are--that entails the major increases within that area, and 
they match with the priorities in the Climate Change Science 
Plan reviewed by the National Academy of Sciences.
    Senator Snowe. Well, I hope you will review this area, in 
terms of exactly what the effects would be, and I would like to 
work with you on that, because I think it's just such a major 
environmental issue. I know it is a concern to you, and you've 
made it one of your highest priorities, and I applaud you for 
that, because I think it's one of the--I think its dimensions 
and facets, may have a tremendous impact on our environment and 
our well-being, and we've got to do so much more in the future.
    I appreciate what you've done, and I just want to make sure 
that the budget is aligned with those key issues, and with the 
research that has already been conducted, which underscores the 
importance of certain areas that we should support and finance.
    Admiral Lautenbacher. I agree, and I assure you that, as 
always, we will work with you to try to get the best budget 
that we can for this year.
    Senator Snowe. On right whale protection, I understand NMFS 
has an interagency ship-strike strategy for several years, but 
it's not clear what the strategy contains and when it will be 
completed. Obviously, there are a number of hurdles here in 
this process. What can we do, though, to remove those hurdles? 
Because I think the time has come to really resolve this. What 
we're seeing is that ultimately, many of the right whales have 
been killed by ship strikes and not with the fishing gear. I 
think we've got to resolve those issues to determine a strategy 
that will best--I mean, I understand the economic impact it'll 
have on the shipping industry, as well. So I think we've got to 
work these issues through once and for all. Where does that 
stand today?
    Admiral Lautenbacher. I'm as equally impatient and 
concerned as you are. In the last year, we have made some 
breakthroughs with the folks who determine shipping routes and 
in the areas of concern. We have, I think, agreement, at this 
point, and we're planning on putting an advance notice of 
proposed rule-making in the Federal Register in about 2 weeks. 
So, we're at the point where we've gotten enough together to 
press forward and get the right kinds of rules in place to 
prevent ship strikes.
    Senator Snowe. When do you think that would happen? What's 
your timeframe?
    Admiral Lautenbacher. Well, you know, you have to have it 
open for a period of comment.
    Senator Snowe. Right.
    Admiral Lautenbacher.And then it will come back. So, we're 
probably talking 6 months.
    [The information requested follows:]

    Question. What is the timetable for the completion of the strategy 
to reduce ship strike mortalities?
    Answer. NOAA Fisheries has completed a draft strategy and published 
an Advance Notice of Proposed Rulemaking for regulations to implement 
the strategy on June 1, 2004 (69 FR 30857). This notice provides the 
framework for the ship strike strategy and makes the strategy available 
to the public. In addition, the notice outlines proposed regulatory 
measures for the shipping industry as an element of the strategy. The 
notice also states NOAA Fisheries' intent to prepare an Environmental 
Assessment (EA) pursuant to the National Environmental Policy Act 
(NEPA) and solicit comments on the proposed regulatory measures and any 
alternatives to the strategy. NOAA Fisheries plans to complete a 
proposed rule for regulatory measures with a draft EA by January 2005. 
However, if it is determined that the agency must prepare an 
Environmental Impact Statement under NEPA, it will take longer to 
complete the proposed rule. NOAA Fisheries will also conduct public 
meetings during the development of the EA.

    Senator Snowe. OK. Well, I hope that we can encourage you 
to finish, because it has been long overdue. And I think the 
fishermen are certainly doing their part with their fishing 
gear and reducing entanglements. And now we're facing problems 
with whale deaths due to ship strikes. So hopefully we can get 
the rule in place.
    And I understand the Appropriations Committee, last year--
well, this year--in the 2004 budget, provided $12 million, up 
from $6.8 million. So, that is an increase for right whale 
activities. So how do you plan to distribute that funding, to 
the states or otherwise? What are you doing with that 
additional funding?
    Admiral Lautenbacher. I don't have that right in front of 
me. Let me provide it to you later.
    [The information requested follows:]

    Question. How will the $12M provided for right whale funding in FY 
2004 be distributed?
    Project Title: Reducing Ship Strikes ($3.376M)

        Activities: Ship strike reduction measures in Fiscal Year 2004 
        are focused on aircraft surveys, Mandatory Ship Reporting 
        systems, support of research grants and contracted studies, and 
        implementation of activities consistent with the Ship Strike 
        Reduction Strategy.

    Project Title: Reducing Entanglement: Implementation of the ALWTRP 
($2.447M)

        Activities: Alternative Fishing Methods and Management Program, 
        Atlantic Large Whale Take Reduction Team (ALWTRT) 
        administrative support and contracts, EIS preparation, gear 
        buyback and recycling pilot program, continue and improve 
        disentanglement programs.

    Project Title: Right Whale Biological Studies ($1.641M)

        Activities: Continue studies of right whale habitat, continue 
        population monitoring, continue studies of health and 
        reproduction, initiate development of a Right Whale Research 
        draft EIS.

    Project Title: Recovery activities of the Northeast and Southeast 
Recovery Plan Implementation Teams ($0.136M)

        Activities: Develop and implement the public outreach component 
        of the national ship strike reduction strategy, provide 
        technical advice on the development of and EA/EIS to implement 
        the national ship strike strategy, continue activities to 
        reduce the risk of ship collisions during the winter calving 
        season.

    * The remaining $2.546M will be used for personnel and 
administrative costs, contracts for biological technicians (for 
aircraft surveys), and enhancing enforcement.

    State Cooperative Whale Protection Programs ($1.910M)

        Activities:

  <bullet> Massachusetts Right Whale Conservation Programs

  <bullet> Georgia/Florida Right Whale Conservation Programs

  <bullet> State Right Whale Conservation Programs through the National 
        Fish and Wildlife Foundation

  <bullet> Joint Enforcement Agreements (JEA)

    Admiral Lautenbacher. I don't have a breakdown of how the 
$12 million is going out. I know it was increased. Much of the 
money was moved around within accounts that were devoted to 
general marine mammal protection, so there are some issues as 
to how we cover some of those parts of it, as well as the right 
whales and the rest of the marine mammal protection priorities 
that we have.
    Senator Snowe. OK, I appreciate that.
    Admiral Lautenbacher.We'll get you a list of the $12 
million.
    Senator Snowe. OK.
    And, finally, on the Coastal Zone Management Act, as you 
know, I reintroduced the reauthorization in January 2003, and 
it has been in limbo ever since, because a hold was put on the 
bill, as you know, regarding oil and gas interests. I know 
NOAA's been working with the Department of Interior. Is there 
any way in which we can resolve these issues so that we can 
allow this legislation to move forward?
    Admiral Lautenbacher. We support reauthorization of the 
Coastal Zone Management Act, so I don't think that's an issue. 
We have also been working on a rule, which has been held up, as 
well. So I'm not real optimistic.
    Senator Snowe. Have you been----
    Admiral Lautenbacher.I would like to move it forward.
    Senator Snowe.--working with----
    Admiral Lautenbacher. We've worked with the Department of 
the Interior. We do.
    Senator Snowe. OK. And have you been doing anything to try 
to resolve the impasse? I mean, is there any line of 
communication open between the Departments?
    Admiral Lautenbacher. There are lines of communication, but 
I don't believe that we have been able to overcome some of the 
difficulties, the differences that we have. And this is a long 
saga.
    Senator Snowe. Yes. OK.
    Admiral Lautenbacher.But we will keep working on it, 
because we would like to have it reauthorized, as well.
    Senator Snowe. Are you talking to the Department of 
Interior about this?
    Admiral Lautenbacher. We do talk to them, yes. Yes, we talk 
to the Department of the Interior.
    Senator Snowe. Just not going anywhere, huh? OK.
    Admiral Lautenbacher. Not yet.
    Senator Snowe. Not yet. Well, if there's anything that we 
can do, as well--I know I've had----
    Admiral Lautenbacher. I understand.
    Senator Snowe.--conversations, as well, here, and it's just 
really unfortunate that we aren't able to move forward with 
this critical legislation. I mean, it really is unfortunate.
    Admiral Lautenbacher. I agree.
    Senator Snowe. OK.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    The Senator from Washington, welcome.
    Senator Cantwell. Thank you, Madam Chairwoman. Thank you 
for holding this important hearing. And I apologize for not 
getting down here sooner, but obviously we've been following 
the testimony.
    Admiral, it's good to see you, although I have to say I 
feel like the Northwest woke up to a bombshell this morning in 
regards to the Washington Post story on hatchery salmon being 
counted as wildlife. And so I wanted to ask you--let's just say 
I had several other important Northwest issues I wanted to ask 
you about, but I think I need to start there, because it is 
quite a surprising story. I guess the key thing is that you've 
had some internal decisions--maybe they are about to be 
released or are in the final stages of being released--and you 
have decided to count hatchery-raised salmon as the biological 
equivalent of wild salmon.
    As you know, we've been spending lots of money to save wild 
salmon, based on science and biological information, and my 
sense is that there is nothing that has changed about that 
science or biological information that would justify a 
departure from what we've been doing to date. But somehow now, 
all of a sudden, hatchery salmon could be counted the same as 
wild salmon. So, first of all, do you stand by the information 
that was in the Washington Post story? Is that where NOAA is 
heading?
    Admiral Lautenbacher. I think the information in the Post 
is somewhat out of context and generalized to the point where 
it's just not something people ought to give a great deal of 
credibility to.
    As you know, we're under a court order to come in with a 
hatchery policy and deal with this within a short timeframe, so 
we are going to meet that court deadline. And part of the 
decision against us was that we had not taken into account, at 
all, the increment or the potential for help from hatchery 
fish.
    First of all, our policy is not finalized. The 
Administration policy is not finalized, it has not gone through 
all of the decision processes. So there is no policy yet in 
place that says what the paper reported.
    Senator Cantwell. But, Admiral, we're in agreement that the 
previous Administration policy was not to count hatchery fish 
the same as wild salmon, correct? That has been the policy of 
the----
    Admiral Lautenbacher. Yes. When you say----
    Senator Cantwell.--Federal Government----
    Admiral Lautenbacher.--not to count--it's not clear that 
our policy won't be not to count hatchery fish the same as wild 
fish. The issue is, do you take them into account--do you look 
at what they do? Do they make a contribution or not make a 
contribution? How do they make a contribution in sustaining the 
wild population? Do they interfere with it? Do they get in the 
way of it? Do they add to it? Do they help us sustain a 
database of DNA? There are a range of issues that you must look 
at when you're trying to determine the status of an endangered 
species. That's what we're being asked to look at. So the 
issue--just to say throw out hatchery fish and they don't 
count, they're not there, they're totally out, they're not part 
of anything we should consider is what I think we're being 
criticized for.
    Senator Cantwell. Admiral, this is----
    Admiral Lautenbacher. The object of the policy is to try to 
look at how to deal with that issue. So it's not a policy--
first of all, the policy hasn't been made yet, it hasn't been 
decided upon, hasn't been finished. But the issue is that we 
have to deal with the hatchery fish in some way.
    Senator Cantwell. Didn't a panel of leading experts--salmon 
ecologists and biologists--convene to give input to NOAA on 
this issue? Based on their scientific expertise, didn't they 
tell your agency that hatchery fish shouldn't be counted? And 
yet NOAA is basically--I don't think you've released the 
scientific analysis--countering what these scientists have said 
should be the basis of salmon recovery. I'm very concerned that 
we're moving away from science, which is what our policy has 
been, and should be, based on.
    Admiral Lautenbacher. We're not moving away----
    Senator Cantwell. This isn't some political judgment, or 
political expediency----
    Admiral Lautenbacher. I assure you, it's not political 
judgment or political expediency. There are groups of 
scientists that are in--there's an array of scientific----
    Senator Cantwell. Can we get----
    Admiral Lautenbacher.--opinions on that.
    Senator Cantwell.--can we get the analysis, then?
    Admiral Lautenbacher. And we are trying to ensure that we 
take all of that into account and have a policy that's based on 
the best synthesis of the scientific opinions that we have 
today in this area.
    Senator Cantwell. So can we get a----
    Admiral Lautenbacher. This is not an attempt to count every 
hatchery fish and say, ``That's a wild fish.'' That's not what 
this is about, and that's a misleading statement that's 
provided in the Washington Post this morning. That's a jump to 
a conclusion that's not there yet.
    Senator Cantwell. So can we get a release, then, of the 
analysis that was done by the scientists so that we all can 
look at that information?
    Admiral Lautenbacher. Certainly when we finish through with 
this, the backup information will be available and transparent, 
as it is for everything that we do. Absolutely.
    Senator Cantwell. So you're here to tell us this morning 
that the decision will be based on science.
    Admiral Lautenbacher. Absolutely. No question about it.
    Senator Cantwell. And you would say that the previous 
science basically had said that there was a difference, a 
distinction in how we preserve wild salmon.
    Admiral Lautenbacher. There's still a difference and a 
distinction in how we preserve wild salmon. Nobody's refuting 
that. The issue is, What do you say about hatchery fish? How do 
you deal with that component?
    Senator Cantwell. I think--I think, Admiral, there are 
billions of dollars being invested in saving wild salmon. There 
are organizations that have been working very hard, since the 
salmon were listed under the Endangered Species Act, to try to 
save wild salmon. And now to see a report in the newspaper that 
somehow hatchery fish should be treated differently than we've 
been treating them. You're saying, ``Well, don't overreact to 
it''--but if you read the story, and the story is coming from 
some knowledgeable people, it would lead you to the conclusion 
that, in fact, people are going to say, ``Listen, you don't 
really have to worry about the wild salmon issue, because we 
have plenty of salmon.''
    Admiral Lautenbacher. I think that's a jump to a--that's a 
bridge too far. You can't jump to that conclusion. I hope 
people will not come to that conclusion. The Administration has 
asked for another $10 million for the Salmon Recovery Fund. We 
are trying to restore wild salmon as ardently as we have in the 
past. There's been no change in that policy, from either 
Administration. So I don't think that's the issue here.
    The issue is, What do we say about the hatchery fish? We 
have to be able to analyze what it is they do or don't do, what 
it means to the different strains of the wild species that we 
have, and provide the best science we can on what that 
combination looks like. It doesn't mean that we count a 
hatchery fish with a wild fish, that they're equal. That's not 
what the article--the article is loosely constructed and, I 
think, misinterpreted some of the statements that Bob Lohn made 
in answer to questions.
    Senator Cantwell. Well, the Post says, let me read it to 
you, that Mr. Lohn ``added that the new policy will probably 
help guide decisions this summer by the Bush Administration 
about whether to remove 15 species of salmon from the protected 
and endangered or threatened list.''
    That's somebody that works within your organization, 
correct?
    Admiral Lautenbacher. It certainly will. If we have a 
policy, it has to help guide decisions. There's no sense in 
having a policy if it doesn't guide the decision--so policy, 
yes, will help--will guide what we do in those decisions on 
listing or non-listing.
    Senator Cantwell. Well, I heard what you just said, and to 
me, you're saying that, yes, NOAA you could take this decision 
about wild salmon and make a conclusion that wild salmon are no 
longer threatened or endangered. Is that right?
    Admiral Lautenbacher. I didn't say that at all. I said 
they're going to review whether they're threatened or 
endangered. We have to review the listing. That's a requirement 
that we're under the gun to do.
    Senator Cantwell. And what impact will this research have 
on that?
    Admiral Lautenbacher. It certainly----
    Senator Cantwell. Could it change the status?
    Admiral Lautenbacher. The status could be changed from a 
number of factors. We've had significant returns in the last 
couple of years, and they're expected to be just as high this 
year. There have been increases in salmon populations. So that 
could affect it. The increase in habitat that we have 
available, hundreds of miles--700 miles more of habitat have 
been placed into effect, basically, as habitat. So there are a 
lot of factors that would add to the decision on whether 
something is threatened or endangered.
    Senator Cantwell. Could hatchery fish alone change the 
listing status?
    Admiral Lautenbacher. I'm not competent to answer that 
question. I'd have to see what the scientists said on it. I 
mean, what they say is what they say, and we'll look at it. I 
don't know whether it would make a difference to that extent or 
not. It would probably be a factor. I mean, you'd have to look 
and see what the science said about that strain and that 
particular set of factors.
    Senator Cantwell. Well, then I don't think Mr. Lohn is 
overstating the situation. I don't think he has misinterpreted 
it at all. I think he is saying exactly what you just said--you 
could take that data and information and change the listing. So 
I think the key thing is for us to get access to the science 
and to make sure that we continue to make our decisions based 
on science. My sense is the science will hold, that you cannot 
solve this problem with hatchery fish.
    So, I don't know how much time you're allotting, Madam 
Chairwoman, but I do have a couple of other questions.
    The orca population in our state, as you know, has already 
been listed by our own state as an endangered species. I think 
you're going through the review process now. Can you give us an 
update on that?
    Admiral Lautenbacher. Well, there are different sets of 
subspecies, or whatever you want to call them. There's--I 
forget the exact terminology for it--but, in any case, there's 
a set of Puget Sound orcas that we have put in a certain 
category, and we are reviewing that to see if it needs to be 
upgraded. And I don't know when that will be finished, but I 
can get you a date on it, or I'll get you more information, if 
you'd like to know.
    Senator Cantwell. But the orcas already are listed as a 
threatened species, isn't that correct? There is already a plan 
to try to----
    Admiral Lautenbacher. Are you talking about the Puget Sound 
species, the southern species?
    Senator Cantwell. It's already a depleted status.
    Admiral Lautenbacher. Depleted, that's the word I'm looking 
for. Depleted status, right. And that was done, I think, last 
year. That's a relatively new development--if we're talking 
about the same subcategory.
    Senator Cantwell. And what does depleted status entail?
    Admiral Lautenbacher. It entails a watch. It entails extra 
attention to ensure taking a look at inventories and seeing--
and reevaluating it. And I think what we're going through now 
is a reevaluation.
    Senator Cantwell. Well, I thought it included specific 
measures to help restore the population. Do you agree or----
    Admiral Lautenbacher. I'll have to get back to you on that.
    [The information requested follows:]

    Question. What species of whales were listed under the ESA or 
depleted under the MMPA and what is the process for listing a species 
as threatened or endangered under the ESA?
    Answer. The Endangered Species Act provides the process for listing 
a species as endangered or threatened, and the Marine Mammal Protection 
Act (MMPA) provides the process for designating a marine mammal species 
or stock as depleted.
    ESA Listing Process: NOAA Fisheries can initiate status reviews of 
species on its own, or the review may be initiated by a petition from a 
member of the public. When the agency is petitioned to list a species, 
it must meet statutory deadlines. To the maximum extent practicable, 
within 90 days after receiving a petition, NOAA Fisheries must make a 
finding on whether the petition presents substantial scientific or 
commercial information indicating that the petitioned action may be 
warranted based on the listing criteria found in the statute (below). 
NOAA Fisheries must publish this finding in the Federal Register and, 
if this finding is positive, initiate a status review. After reviewing 
the best available scientific and commercial information, NOAA 
Fisheries must publish a 12-month finding within one year of the date 
of the petition. Either the petitioned action is not warranted, the 
petitioned action is warranted, or the petitioned action is warranted 
but precluded because of other pending proposals and expeditious 
process is being made to list qualified species. If NOAA Fisheries 
finds that the petitioned action is warranted and not precluded, it 
must promptly publish a proposed rule for the listing action. NOAA 
Fisheries solicits comments from the public and, within another year, 
makes a final determination on whether to list the species.
    A species must be listed if it is threatened or endangered due to 
any of the following five factors:

  <bullet> present or threatened destruction, modification, or 
        curtailment of its habitat or range;

  <bullet> overutilization for commercial, recreational, scientific, or 
        educational purposes;

  <bullet> disease or predation;

  <bullet> inadequacy of existing regulatory mechanisms; and

  <bullet> other natural or manmade factors affecting its continued 
        existence.

    A threatened species means any species that is likely to become an 
endangered species within the foreseeable future throughout all or a 
significant portion of its range. An endangered species means any 
species that is in danger of extinction throughout all or a significant 
portion of its range.
    MMPA Depleted Designation: Under the MMPA, after consultation with 
the Marine Mammal Commission, NOAA Fisheries may designate a species or 
stock of marine mammals as depleted when it falls below its optimum 
sustainable population (OSP). The MMPA defines OSP as ``the number of 
animals which will result in the maximum productivity of the population 
or the species, keeping in mind the carrying capacity of the habitat 
and the health of the ecosystem of which they form a constituent 
element'' (16 U.S.C. 1362(9)). NOAA Fisheries regulations have further 
defined optimum sustainable population as ``a population size, which 
falls within a range from [the carrying capacity of the] ecosystem to 
the population level that results in maximum net productivity.''
    Listed Species: All species of large baleen whales (right whales, 
humpback whales, fin whales, blue whales, sei whales, Bryde's whales, 
and the bowhead whale) and the sperm whale (largest toothed whale) are 
listed as endangered under the ESA and have been since the 
implementation of the statute due largely to commercial whaling (these 
whales are also considered depleted under the MMPA). The only baleen 
whales not listed under the ESA or the MMPA are the gray whale in the 
eastern Pacific Ocean (delisted in 1994) and the minke whale (never 
listed).
    There are currently two whale stocks considered depleted under the 
MMPA, but not listed under the ESA. These are the Southern Resident 
Killer Whales in the Pacific and the Cook Inlet beluga whale. The AT1 
killer whale group in Alaska is proposed as depleted and the final 
designation is expected to be published soon.

    Senator Cantwell. The reason----
    Admiral Lautenbacher. It would be unfair of me to make 
comments on what exactly--I do not have in my head----
    Senator Cantwell. OK.
    Admiral Lautenbacher.--right now the----
    Senator Cantwell. I would appreciate----
    Admiral Lautenbacher.--factors regarding a depleted status. 
But I can get that for you.
    Senator Cantwell. The reason why I'm bringing that up is 
because I know Bob Lohn has taken steps to move this process 
along, and a depleted status is about trying to make changes so 
that you don't go to the extent of an endangered listing.
    Admiral Lautenbacher. Absolutely.
    Senator Cantwell. So we have been----
    Admiral Lautenbacher. That's important.
    Senator Cantwell.--successful in securing research funds 
and other funds to help with the depleted status and 
identifying ways to help restore the population. So, you can 
understand that I am disappointed that NOAA did not include 
research funding in its 2005 budget request. So I'm just trying 
to understand how the Administration can be concerned about the 
orcas, can have a depleted process, but then not ask for funds 
to carry out that activity.
    Admiral Lautenbacher. Many of these funds were added after 
the Administration's submission to Congress. I'll have to go 
back and look and see which ones were or weren't. We have this 
marvelous mismatch in our budget procedures, which I'm sure 
you're aware of, which means that we build our budget for the 
next year--well before we have the congressional final on the 
previous year's budget. We end up in this ``do loop'' where we 
build our proposal on last year's proposal. And then by the 
time we get through the whole system and the bill comes out, 
it's much different than the one we proposed. So I'd have to go 
back and look to see if that's the reason why it's not there, 
or there's some other reason.
    The research funds that are in the President's proposal are 
certainly less than what Congress approved in last year's 
budget, so there will be things that are missing in that area, 
and I take it this is one of them. But I can go back to check 
to see if----
    Senator Cantwell. Yes, I'm just----
    Admiral Lautenbacher.--it was internal to NOAA or------
    Senator Cantwell:--I'm just curious----
    Admiral Lautenbacher.--whether it was the final 
deliberations on building the budget, in Congress.
    Senator Cantwell. Yes, I'm just concerned, because we've 
already taken steps at the state level, and we have, it seems, 
at the Federal level, taken steps to say that this population 
is depleted and that we're very concerned about the orcas and 
what is happening to them. And, I think it's safe to say there 
are a lot in the larger community who don't think that we're 
moving fast enough, given the sharp decline in the orca 
population.
    So, the fact that we don't have Federal research dollars 
and support for the depleted status leaves a lot of people 
questioning your agency's commitment to the problem. I'm sure 
there are Members here that will work hard on restoring that, 
but the question is, how does the agency, internally speaking, 
come to terms with the fact that it has a mission to carry out, 
but then doesn't request funds for it? So if you could get us 
an answer on that, I would----
    Admiral Lautenbacher. OK.
    Senator Cantwell.--greatly appreciate it.
    [The information requested follows:]

    Question. Why were no funds requested for killer whale species 
whose status has been designated as depleted?
    Answer. We would like to thank the Senator for her work in FY 2003 
and 2004 in helping to secure funding for research into the status of 
and the threats facing the Southern Resident Killer Whales. Due to 
budget constraints, the Protected Species Management--N. Pacific South 
Resident Orca Population budget line was not included in the 
President's FY 2005 budget request. If the President's FY 2005 budget 
request is supported, NOAA Fisheries would use Base Protected Species 
funding for orca conservation efforts.

    Senator Cantwell. I don't know, Madam Chairwoman, if you 
had other questions.
    I do have one other issue. Not to bring up all the 
Northwest issues, but you're here, and we appreciate the 
opportunity Admiral. I am told tht we have a weather radar-
coverage issue on the Northwest Coast, which I think is caused 
by the way the Olympic Mountains cast a shadow. If you remember 
the New Carissa accident off the Coast of Washington, you'll 
realize why accurate weather foecasts are needed. We have a 
marine sanctuary there. We have a lot of activity from Whidbey 
Island Naval Station, from the fishing industry, and from many 
other coastal activities. So, it is a bit surprising that we 
have one of the worst radar coverages in that section of the 
coastal United States than anywhere else in the country. I 
wanted to get your impression on whether you thought we could 
add additional radar information there to help in preventing 
accidents in the future, to help on search-and-rescue 
operations, and so on.
    Admiral Lautenbacher. I understand the concern. I will look 
at it and get back to you.
    [The information requested follows:]

    Question. Is there a way to get better radar coverage for 
the Olympic Peninsula?
    Answer. The Board on Atmospheric Sciences and Climate 
(BASC) of the National Research Council is conducting a study 
to assess the effectiveness of operating NEXRAD radars in 
complex terrain, in support of the National Weather Service's 
flash flood warning and forecast mission, with a focus on 
Sulphur Mountain, California. The results of the study, 
expected this fall, will form the basis for the NWS to develop 
objective criteria to evaluate whether a given location 
requires increased weather radar coverage, including NEXRAD and 
other more advanced technologies. The NWS will reevaluate radar 
coverage across the country, including the Olympic Peninsula 
area. Preliminary results are expected in Spring 2005.

    Admiral Lautenbacher. I am not aware of any plans right now 
to add a radar to that area, but let me look into it for you.
    Senator Cantwell. Well, we would appreciate that. And maybe 
my staff could provide you additional information about the 
issue so we could get the process rolling, because we have a 
huge port entry there into Grays Harbor, and, as I said, we 
have the marine sanctuary. We've had some incidents in the past 
several years that I think highlight the problem caused by the 
Olympic Mountains shadow. I don't know where the closest 
station is, but I do know we don't have the coverage we need. 
So if you could look into it, I'd appreciate it.
    Admiral Lautenbacher. Understood.
    Senator Cantwell. Thank you, Madam Chairwoman.
    Senator Snowe. Thank you, Senator Cantwell.
    And, Admiral Lautenbacher, just to follow up on the 
questions that Senator Cantwell raised regarding counting 
hatchery salmon as wildlife in the Pacific Northwest, was is 
it--exactly how do you intend to proceed on this?
    I mean, it's an interesting perspective, given the fact of 
the experience of Maine. As you know, the Atlantic salmon has 
been placed on the threatened and endangered species list, and 
going through, you know, a variety of mitigation efforts, and 
it's been a very costly endeavor. So how would the various 
regions of the country be treated under this scenario?
    Admiral Lautenbacher. I will have to go back and look at 
it, but my impression is that this is a hatchery policy and it 
would apply to more than just the Northwest. Now, I've got to 
go back and verify that. But that's in my head.
    [The information requested follows:]

    Question. In reference to a recent article in a newspaper regarding 
the Hatchery Salmon Policy, which would equate hatchery fish to wild 
fish, what scientific analysis supports the change in policy?
    Answer. On June 3, 2004, NOAA issued a Notice of Proposed Policy in 
the Federal Register (69 FR 31354), which is being developed in 
response to the Alsea court decision. The Alsea decision correctly 
noted that a portion of the Oregon coast coho distinct population 
segment (DPS) cannot be listed as threatened or endangered under the 
Endangered Species Act (ESA). This is because the ESA provides for 
listing of species, subspecies, and DPSs but not for smaller units. For 
Pacific salmonids, DPSs are defined as evolutionarily significant units 
(ESUs). Therefore, if an ESU includes hatchery fish, then the entire 
ESU must be listed if any portion of the ESU is to be considered in 
listing decisions. For over a decade, NOAA Fisheries scientists have 
biologically grouped certain hatchery fish with natural spawning fish 
into ESUs as a scientific matter. Given this science-based decision, 
NOAA Fisheries cannot choose, for policy reasons, to only list the 
natural portion of the ESU.
    Additionally, in February 2003, a group of ten independent 
fisheries scientists representing a range of institutions, with 
extensive experience in research of the salmon life cycle, published an 
analysis in which they found that hatchery fish should not be excluded 
from their wild counterparts in listing determinations under the 
Endangered Species Act. Tribal fish scientists have also conducted a 
number of studies that support this conclusion.
    NOAA is not equating hatchery fish with wild fish, but it is 
acknowledging that, in some circumstances, hatchery fish may help 
improve the status of wild fish by contributing to the four key 
attributes of a viable salmonid population (VSP): abundance, 
productivity, spatial structure, and genetic diversity. The VSP 
analysis that NOAA undertakes for each salmonid ESU listing decision 
does not assign equal or predetermined weight to each of these 
attributes, nor does it preclude consideration of other factors that 
may be biologically relevant in a particular circumstance. For ESUs 
that include hatchery fish (those that are of a level of genetic 
divergence that is no more than what would be expected between closely-
related populations within the ESU), the VSP analyses address the four 
key attributes of the entire ESU, including the hatchery fish, in 
determining whether an ESU is at risk of extinction now or in the 
foreseeable future. Because there are so many different ways in which 
hatchery-origin fish are introduced into the environment, there is no 
uniform answer about the potential contribution of hatchery-origin fish 
to the survival of the ESU.
    This proposed policy applies only to Pacific salmon and steelhead 
and only in the context of making ESA listing determinations, not in 
the context of recovery. Nevertheless, the proposed policy is intended 
to be generally consistent with the joint NOAA Fisheries/U.S. Fish and 
Wildlife Service Policy Regarding Controlled Propagation of Species 
Listed under the ESA (65 FR 56916; September 20, 2000). While 
acknowledging the potentially supportive role that artificial 
propagation may play in the conservation and recovery of listed 
species, the joint policy stresses that artificial propagation is not a 
substitute for addressing the factors responsible for a species' 
decline and that recovery of wild populations in their natural habitat 
is the first priority. It also recognizes that genetic and ecological 
risks may be associated with artificial propagation, and requires that 
artificial propagation for species conservation and recovery be 
conducted in a manner that minimizes risks and preserves the genetic 
and ecological distinctiveness of the species to the maximum extent 
possible.

    Senator Snowe. It's a major--I mean, it is a----
    Admiral Lautenbacher. And this comes from the suit--I guess 
Alsea Valley Alliance versus Evans--that throughout everything 
that we did, based on the fact that nobody talked about 
hatchery fish, it was--they weren't talked about, they weren't 
discussed, and there was no indication of what they did or 
didn't do. So we're under court order to come to some 
scientific resolution of what they do or don't do, and that's 
what we're trying to meet.
    Senator Snowe. Well, we're living under the----
    Admiral Lautenbacher. I'd have to look at the listings, as 
well.
    Senator Snowe. I know. Well, it is rather stunning, given 
what we have endured over the last few years, as you well know, 
and the guidelines that our industry was subjected to regarding 
the impact of hatchery fish on wildlife and what constituted 
wildlife salmon and--you know we went through the rigors of all 
of that. So it is a stunning departure to all of a sudden to 
abruptly discover this in the front page of the newspapers 
today.
    Admiral Lautenbacher. Well, I abruptly discovered it in the 
front of the newspaper today, too.
    Senator Snowe. You, too. I'll just tell you, I think we 
need to--you know, this is a major issue, obviously, that 
affects----
    Admiral Lautenbacher. It is a major issue.
    Senator Snowe.--now many.
    Admiral Lautenbacher. And I don't think----
    Senator Snowe. We're living by a certain set of rules. So 
it's just fascinating to me that somehow it's evolving into 
something else. And given all the hardships that our industry 
has gone through, in the State of Maine--they're on the list, 
as you know, and we're living by that. You've been helpful in 
providing support for the recovery of the salmon--but this is 
an interesting development now, blurring the lines after all we 
tried to do to prove that one wouldn't affect the other. But 
obviously that wasn't sustained, and here we are, and Maine's 
industry is going through a very wrenching process, as well.
    Admiral Lautenbacher. I don't think we should jump to the 
conclusion that the previous rules will be thrown out. Let me 
just say that off----
    Senator Snowe. But, in any event, it would apply across the 
country, would it not? Including Atlantic salmon, as well?
    Admiral Lautenbacher. I think if you come up with a new way 
of looking at things, that it would be hard not to say it 
applies to--you know, to the whole system, just from a 
precedent point of view.
    Senator Cantwell. Madam Chairwoman?
    Senator Snowe. Senator Cantwell?
    Senator Cantwell. I share your amazement, because obviously 
our region has been working on this for a number of years and a 
variety of plans, and this will certainly throw it into turmoil 
and uncertainty. I'm not sure if this leaked document is an 
accurate reflection, but we have reports somebody says that is, 
and that in NOAA is going to include hatchery fish that are no 
more than moderately divergent from the natural population. 
Basically, that's what the new policy is going to say.
    I am skeptical, I want to see the science on that. I want 
to see what the science process was, and how the scientific 
recommendations were treated. Madam Chair, I think you know how 
these kinds of things can throw a whole region into disarray. 
My region has been working very diligently to solve this 
problem, and spending significant taxpayer resources--now all 
of a sudden to come up with a different conclusion that is 
different than the science that we've had in the past is 
nothing short of amazing, and obviously quite disturbing. So I 
appreciate----
    Senator Snowe. I know, just given our history and what we 
did ultimately in the State of Maine making the decision in the 
industry to agree to it and to proceed and move forward with 
mitigation and being placed on the list. Given what we have 
experienced and endured over the last few years, it is 
remarkable that we're at this point discussing this, with all 
that we have gone through.
    So we're obviously going to want many answers to many 
questions regarding this--from the beginning.
    Admiral Lautenbacher. Understood. I am as equally 
concerned, believe me.
    Senator Snowe. OK.
    Any other questions?
    Senator Cantwell. No, thank you, Madam Chair.
    Senator Snowe. Well, Admiral Lautenbacher, thank you for 
appearing here today, for your responsiveness. And we're 
looking forward to continue working with you.
    This hearing is adjourned.
    [Whereupon, at 11:19 a.m., the hearing was adjourned.]

                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                  Vice Admiral Conrad C. Lautenbacher
Northeast Multispecies Fishery Management Plan
    Question 1. As you know, in a matter of days Amendment 13 will take 
effect in the New England groundfishery. Undoubtedly, these measures 
will fundamentally change the economy and culture of Maine's working 
waterfront. Once the impacts of these regulations are experienced 
first-hand and fully realized, we will have to face a very difficult 
reality and take more action to minimize the impacts. I continue to 
urge NOAA to work with our fishermen, communities, and the Council to 
implement any possible measures for helping ease these impacts.

  <bullet> On the issue of latent effort, how is catch history being 
        linked to future fishing opportunities in Amendment 13? How is 
        NOAA working with the Council and fishermen to better address 
        latent effort in the future?

  <bullet> The plan contains a section on the ``U.S./Canada Resource 
        Sharing Understanding'' to allow limited fishing for cod, 
        haddock, and yellowtail flounder . . . what exactly is the 
        legal status of this ``Understanding''? Is it strong enough to 
        protect U.S. interests if challenged? If this ``Understanding'' 
        falls apart for any reason, how will that affect U.S. fishing 
        of these stocks?

  <bullet> With an average of just over 50 fishing days, many fishermen 
        will not be able to make a living. So what else is NOAA doing 
        to understand and minimize the socio-economic impacts on 
        fishermen and communities that could result from Amendment 13? 
        How can Congress help NOAA achieve a better balance these 
        impacts and other management needs?

    Answer. Under Amendment 13, the fishing history of a limited access 
Northeast multispecies days-at-sea (DAS) vessel is linked directly to 
its current and future fishing opportunities. The total number of DAS 
that a vessel may currently fish is based upon a formula that takes 
into account the vessel's past DAS use and landings during the 1996 
through 2001 fishing year qualification period (May 1, 1996 through 
April30, 2002). In addition, Amendment 13 defines several categories of 
DAS (A, B, and C) that reflect the vessel's historic activity. For 
example, a vessel that was active during the qualification period would 
be allocated relatively more Category A and B DAS and less Category C 
DAS. A vessel that was inactive during this period would be allocated 
only Category C DAS. Category C DAS represent latent effort and under 
current rules may not be used. In contrast, Category A DAS may be used 
in an unrestricted manner and Category B may be used to target 
relatively healthy stocks under specific conditions. Framework 
Adjustment 40-B, currently under development by the New England Fishery 
Management Council (Council), proposes re-categorizing 10 Category C 
DAS as Category B (reserve) DAS for vessels allocated zero Category A 
or B DAS under Amendment 13 for use when fishing in specific Special 
Access Programs. As stocks rebuild, the Council could recommend the 
further use of Category C DAS.
    The ``U.S./Canada Resource Sharing Understanding'' was developed to 
help ensure that U.S. and Canadian interests were addressed in a 
mutually advantageous way for stocks of fish shared by both countries. 
Because of the exigencies in developing a management plan for these 
stocks as quickly as possible, the United States and Canada decided 
that it would not be practicable to attempt to develop the 
Understanding through a more formal and time-consuming process required 
by U.S. law to enter into binding agreements or treaties between the 
two governments. By developing the Understanding, although not legally 
binding, NOAA Fisheries had more flexibility to address and protect, in 
an expedited manner, the regional interests in the stocks shared 
between the two countries. Although the Understanding may not be 
enforceable in a strict legal sense under international law, it 
nevertheless spells out objective criteria and principles that both 
countries have publicly committed themselves to follow. Because of the 
public status and the importance of this Understanding to the United 
States and Canada, NOAA Fisheries believes that this Understanding is 
likely to be adhered to by both countries. In the unlikely event that 
Canada chooses not to adhere to the Understanding, the United States is 
free to change its fishing regulations to protect any U.S. fishing 
interests that may be jeopardized, through the Council process or by 
Secretarial action, as necessary.
    NOAA Fisheries is working closely with the Council to develop 
regulations that would allow vessels opportunities to harvest stocks 
that are in relatively good condition, while at the same time 
protecting stocks that are of concern (Framework Adjustments 40-A and 
40-B). In addition, NOAA Fisheries is supporting industry efforts to 
conduct research on new fishing methods and gear that would facilitate 
such harvest.
Stock Assessment Processes
    Question 2. The FY 2005 budget request includes $18.9 million to 
address long-standing shortfalls in fisheries science capabilities 
through investments in infrastructure for ``five state-of the-art stock 
assessments.'' Is New England included among these five stock 
assessments? If so, which stocks will be assessed with these new stock 
assessments? How will these assessments differ from previous 
assessments?
    Answer. Yes, New England is included among these five stock 
assessments. Through these funding enhancements, the Northeast 
Fisheries Science Center will continue to focus on improving 
quantitative fish stock assessments. The relevant actions are:

  <bullet> Add program resources to implement trawl survey monitoring

  <bullet> Implement trawl gear inspection and operational protocols

  <bullet> Increase industry participation in survey activities

  <bullet> Design more effective survey gear

  <bullet> Improve biological (length-age) collections for stock 
        assessments

  <bullet> Increase observer monitoring and port sampling ofthe 
        fisheries

  <bullet> Improve methods in stock assessment models

  <bullet> Graduate student and faculty support in fish population 
        dynamics

    In FY 2005, the Center will increase the number of age-based 
assessments supporting the Northeast Multispecies Fishery Management 
Plan, beyond the 17 stocks (out of 42) currently monitored at this 
level. Age-based analyses are generally considered to be preferable to 
analyses based on less detailed demographic information or simple catch 
indices. Age-based assessment models can provide short-term (1-3 years) 
projections of future stock recruitment and abundance.
    Processing archived red hake otoliths and refinement of ageing 
techniques for four species of skate and dogfish will provide the 
essential data required in more advanced age-based stock assessments. 
Improvements in data collection for Atlantic mackerel and scup will be 
achieved through newly acquired hydroacoustic technology.
Data Collection Protocols for Stock Assessments
    Question 3. Commerce's Inspector General took a close look at the 
protocols that NOAA uses to inspect, calibrate, use, and maintain its 
stock assessment data collection equipment. They acknowledged the steps 
NOAA has taken and recommended that more be done. As of last November, 
NOAA was to have provided the IG with an ``audit action plan'' 
addressing all of the report recommendations.

  <bullet> Whether through NOAA's internal review or through the IG's 
        investigation, what are the key changes that NOAA is making to 
        their sampling gear protocols? How will these changes help 
        minimize the risk of future gear calibration mistakes?

  <bullet> What is the status of the audit action plan? If it has not 
        yet been delivered, what is the timeline for this?

    Answer. Based on the Inspector General's (IG) recommendations, the 
Assistant Administrator for NOAA Fisheries directed the NOAA Fisheries 
Science Centers to identify all scientific equipment that requires 
calibration and the detailed steps they will take to organize, and if 
necessary, develop procedures for calibrating identified gear.
    A Survey Standardization Working Group (SSWG) consisting of at 
least two members from each Fisheries Science Center that conducts 
bottom trawl surveys was established January 6, 2004. The first meeting 
of the group was held on January 26, 2004.
    The Northeast Center, the Electronics Technician (ET) working on 
the fisheries research vessel (FRV) ALBATROSS N and DELAWARE IT, and 
the NOAA Office of Marine and Aviation Operations (OMAO) collaborated 
to develop more thorough protocols for the calibration of equipment. 
Protocols were submitted for review and adoption within OMAO on 
February 23, 2004. In addition, the OMAO ET consults with the vessel 
Chief after each cruise to identify any potential problems with wire 
readout, and receives a copy of the recorded measurements for each 
haul.
    The Trawl Survey Advisory Committee has met five times (total of 
nine meeting days) since May 2003. At each of these meetings, the 
committee has discussed NEFSC bottom trawl gear and the Center has 
received and adhered to advice on replacement hardware and net 
mensuration from the committee. The committee is actively working on 
recommendations for bottom trawl gear to be adopted in conjunction with 
the new fisheries survey vessel (FSV) and is focused on generation of 
an initial trawl design to be tested during an October 2004 research 
cruise on the FRV Delaware IT.
    The Assistant Administrator for Fisheries directed the Northeast 
Fisheries Science Center (NEFSC) to improve the checklist and 
specifications describing the various components ofthe trawl net. 
Personnel from NEFSC implemented improved checklists in August 2003 
after consultations with commercial fishery industry members. NEFSC 
initiated a contract with a gear standardization group at Memorial 
University (Newfoundland, Canada), which is considered to be the world 
leader in the standardization of fishing gear. This contract outlines 
complete detailing of trawl gear and components used for quantitative 
surveys including the Yankee 36 roller net (focus of the OIG audit), 
the Winter flat net, and the NEFSC shrimp trawl. Memorial University 
staff worked with gear staff from NEFSC during November 3-10, 2003, to 
inspect and measure example gear at the center's gear warehouse in 
Pocasset, Massachusetts.
    Measurements and specifications for doors are included in the gear 
standardization contract currently being completed by Memorial 
University. Deliverables from the contract will include a set of 
specifications for the two door types used during fishery independent 
surveys at the center. The center also revised operational protocols in 
spring 2003 to ensure that backstrap chains are considered as a unit 
with doors, so that measurement and replacement of chains can be 
thoroughly documented. In addition, the center has been proactive in 
initiating the procurement of door shoes to serve as replacements 
during the expected usage of this door type (5 years). The center is 
also committed to the purchase of accurate load cells required to 
weight doors to ensure accurate weight measurements on large trawl 
components (doors) and entire trawl nets.
    The Northeast Center previously completed revision of procedures 
related to the standardization of door shoes and backstraps. Door shoes 
are now routinely replaced following each completed survey.
    Procedures to ensure proper deployment of floats (to ensure that 
the float line does not become tangled with other parts of the net) 
were implemented beginning with the Winter 2003 survey and are ongoing. 
Center personnel established a more thorough inspection checklist for 
gear that included specific details about attachment procedures and 
condition of floats. Contract personnel from Memorial University 
completed buoyancy testing of floats in November 2003 and delivered 
recommendations on proposed tolerance levels for variation in buoyancy 
of floats. Net inspections currently being conducted by the Northeast 
Center include an assessment of float condition.
    NOAA's audit action plan for the bottomfish trawl protocol was 
delivered to the IG's office on March 3, 2004. The IG concurred with 
the plan on March 11, 2004.
Fisheries Observer Coverage
    Question 4. The FY 2005 budget request presents conflicting 
information about court-ordered observer coverage for Amendment 13-the 
narrative describes how $5.5 million is requested for these observers, 
but the line item for this appears to be zeroed out. As you know, the 
court requires 10 percent observer coverage to monitor New England 
groundfish bycatch.

  <bullet> Could you please clarify exactly how much NOAA will spend on 
        observers? What percent coverage would that achieve?

  <bullet> The FY 2004 request included an increase of $3 million for 
        expanding fishery observer coverage in the Northeast. What 
        fisheries will these observers address? Will the herring 
        fishery be included? If so, at what level of coverage?

    Answer. In FY 2005, NOAA Fisheries is requesting $9.5M for 
Observers-Fishery Observers, of which $5.5M is for New England 
groundfish observers. As in our FY 2004 budget request, we are 
including the funds for New England groundfish observers in the 
Observers-Fishery Observers rather than in a separate court-ordered 
observers line. The $5.5M allows for 5 percent observer coverage. The 
U.S. District Court ordered that ``. . . NMFS shall provide 10 percent 
observer coverage for all gear sectors, unless it can establish by the 
most reliable and current scientific information available that such 
increase is not necessary . . .'' Based on an analysis of the relative 
precision of discard estimates using observer coverage and landings 
data for 17 groundfish stocks, NOAA Fisheries determined that 5 percent 
will provide sufficiently robust statistical data for assessment of the 
catch, bycatch, and discards of the New England multi-species 
groundfish fishery. NOAA informed the court that 5 percent coverage is 
sufficient to meet the court requirements. For FY 2004, funds are being 
spent on achieving 10 percent coverage of the fishery due to direction 
in the FY 2004 Appropriation.
    In FY 2004, NOAA Fisheries received $9.4M for funding of NE 
Groundfish Court-Ordered Observer Coverage. These funds were used to 
deploy observers in the following fisheries:

  <bullet> New England Large Mesh Otter Trawl (gadoids, flatfish, 
        monkfish)

  <bullet> New England Small Mesh Otter Trawl (gadoids, herring, small 
        pelagics, dogfish)

  <bullet> New England Gillnet (gadoids, flatfish, dogfish)

  <bullet> Georges Bank Scallop Dredge (including groundfish closed 
        areas)

  <bullet> Gulf of Maine Shrimp Trawl

  <bullet> New England Demersal Longline (gadoids, dogfish)

  <bullet> New England/Mid-Atlantic Midwater Trawl (herring, mackerel)

  <bullet> New England/Mid-Atlantic Pair Trawl (herring, mackerel)

  <bullet> New England/Mid-Atlantic Purse Seine (herring)

    NOAA Fisheries allocated approximately 300 days of at sea in FY 
2004 to herring trawl fisheries in the Gulf of Maine out of the NE 
Groundfish observers line item. This should provide 15-20 percent 
coverage of this fishery.
Offshore Aquaculture
    Question 5. The budget request includes $1.6 million for marine 
aquaculture activities. In previous years this account has been much 
higher (e.g., in FY0l, $8.4 million was appropriated for NOAA 
aquaculture), but after zero funding enacted in FY03 and $765,000 
enacted in FY04, this program is making a rebound.
    I'm aware that NMFS has been re-examining their aquaculture program 
and looking at ways to create new growth opportunities in offshore 
Federal waters. Similarly, the U.S. Ocean Commission addressed the need 
to further define how these operations would be regulated.

  <bullet> What is the status of NOAA's draft bill on offshore 
        aquaculture? What is the timeline for delivering it to 
        Congress? I urge you to try and complete all clearances as soon 
        as possible, so that we can give this issue early and proper 
        attention in a comprehensive ocean management system.

  <bullet> What can you tell us about NOAA's draft bill? Specifically, 
        what role would the Councils have? How would the regulatory 
        process work in this approach? To what extent does it align 
        with the Ocean Commission's recommendations?

    Answer. NOAA is currently considering the best approach to take in 
developing aquaculture, including a possible permit system for 
aquaculture operations in the Exclusive Economic Zone and environmental 
standards if existing standards, promulgated by other agencies, are 
deemed to be insufficient. Recommendations of the U.S. Commission on 
Ocean Policy will be taken into account in determining the 
Administration's approach to aquaculture. In the event the 
Administration proposes legislation, NOAA expects, and will welcome, 
public debate with respect to the regulatory process, the role of the 
Councils, and other details of implementation.
Salmon Restoration
    Question 6. Again for FY 2005, NOAA requests $5.027 million for 
Atlantic salmon recovery activities, indicating basically level funding 
for salmon recovery. Salmon restoration professionals in Maine believe 
that much more money is needed, for both state and Federal research as 
well as Endangered Species Act compliance-and the National Academy of 
Sciences report clearly called for a range of new and expanded efforts.
    Because of the great need to provide Federal support for this 
federally-listed endangered species, I am very grateful for your 
cooperation in providing $30,000 for community outreach activities of 
the Penobscot River Restoration Program. This program holds great 
promise to make substantial advances in salmon habitat restoration, yet 
it continues to need funding--on the order of$25 million dollars over 
the next few years.

  <bullet> Based on my discussions with salmon managers in Maine, there 
        appears to be a chronic state of confusion about how much of 
        NOAA's salmon budget is supposed to go to the State of Maine 
        for their recovery plan and efforts. Specifically, how much 
        from each Atlantic salmon line item will go to Maine? How much 
        has been forwarded to Maine in the FY04 enacted funding?

  <bullet> Ideally, considering the current status of Atlantic salmon 
        and the range of restoration, research, and compliance 
        activities that need to occur, what would be a reasonable 
        estimate of the true Atlantic salmon funding needs? Is funding 
        limitation a true limiting factor to recovery, or do you think 
        these fish are doomed, regardless of how much is spent?

    Answer. Of the $5.027M NOAA requested for Atlantic salmon in the FY 
2005 budget request, $1,500K is for Maine Atlantic salmon recovery 
efforts--an increase of $313K over the FY 2004 enacted level. In FY 
2004 NOAA awarded $1,146K of the enacted $1,187K to the Maine Atlantic 
Salmon Commission to carry out cooperative research on Atlantic salmon 
as part of the federal/state efforts to protect and recover this 
critically endangered species. This is the funding contained in the 
line item Protected Species Management State of Maine Salmon Recovery.
    The draft recovery plan for the Gulf of Maine Distinct Population 
Segment of Atlantic salmon includes a total estimated minimum cost of 
recovery for actions from year 1 to year 3 at $33.2M for all federal, 
state, and local agencies. The plan also includes a comprehensive list 
of the actions associated with these cost estimates.
    Ongoing research is identifying factors limiting recovery and 
pointing to management actions that can address those factors. One 
example is the research finding that smolts leaving the Dennys River 
were not well suited to make the transition to salt water. The 
experimental liming project being planned for that river has the 
potential to mitigate water quality conditions and send many more 
smolts successfully out of the system with the goal of realizing more 
adult returns. These and other actions provide promise that with our 
ongoing research and adaptive management, we can identify and correct 
factors limiting salmon productivity and therefore successfully recover 
the species.
    The cost estimate identified above includes recovery actions for 
the listed species. The Penobscot River Restoration Project, which you 
mention, has the potential for significant benefits to Atlantic salmon 
and other sea run species in Maine. However, the substantial costs 
associated with this project are not included in the cost estimate 
identified above.
Lobster Sea Sampling
    Question 7. For the first time in recent memory, the FY 2005 budget 
request zeroes out the lobster sea sampling line item. This item, 
recently funded near only $150,000, does not make a large dent in the 
NOAA budget, but it does provide a tremendous return in valuable data 
and information for management. While 80 percent of the lobster fishery 
occurs in state waters, coordinated sampling of the lobster population 
is a key element of science-based management for this regional fishery.

  <bullet> Is this decision to cut funding based on the fact that this 
        is mostly a state-run fishery? Does this mean that it is not a 
        NOAA priority? If so, isn't this a case of allowing marine 
        science to be dictated by political boundaries and not 
        ecosystem factors?

  <bullet> How important are lobster populations in the overall 
        functioning of the Gulf of Maine ecosystem? Shouldn't lobster 
        sea sampling data get incorporated into marine ecosystem 
        models?

  <bullet> What are NOAA's plans for reinstating this funding?

    Answer. NOAA recognizes that the American lobster supports the most 
valuable commercial fishery in the Northeast United States. Evidence 
indicates that lobsters in the Gulf of Maine constitute the largest in 
economic importance of three primary stock units along the Atlantic 
coast. The lobster resource is one of ecological importance (in terms 
of food web dynamics and as an indicator of environmental health) in 
the nearshore and offshore portions of the Gulf of Maine ecosystem.
    Still, due to the current tight budget constraints, the ``Lobster 
Sampling'' line item was not included in the President's budget. In FY 
2005, a number of similar items were also proposed for reduced or no 
funding in order to ensure that the agency's highest priorities are 
funded.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                  Vice Admiral Conrad C. Lautenbacher
Coastal Management
    Question 1. Currently 52 percent of all Americans live in coastal 
watershed areas. This number is expected to increase to 75 percent by 
the year 2025. In addition, over half of the Nation's GDP, $4.5 
trillion, is generated in our coastal areas. With figures such as 
these, it is obvious that we as a nation must improve management of our 
coastal zones, however the Administration's budget request proposes 
decreasing Coastal Zone Management grants by $3 million.

  <bullet> At a time when our coasts are experiencing a continuing 
        increase in growth and development, do you feel that these cuts 
        are appropriate?

  <bullet> The U.S. Commission on Ocean Policy recommends strengthening 
        the Coastal Zone Management Act and increasing funding in order 
        to adequately achieve the goals of the Act. What is the 
        Administration's response to this recommendation? Do you feel 
        that the goals of the CZMA can be achieved with reduced funding 
        for Coastal Zone Management grants?

    Answer. NOAA, like all Federal agencies, has limits on its ability 
to dedicate resources across all of its mission areas. In times of 
limited growth for discretionary government spending, we must often 
make difficult choices concerning the allocation of those resources. 
The reduction to Coastal Zone Management grants represents less than a 
5 percent decrease from the FY 2004 appropriated level and less than 7 
percent from the FY 2004 President's Request. NOAA believes the 
reduction will have only a small impact on any individual state when 
spread across the 34 participating state programs.
    In the spring of 2003, OMB reviewed the CZMA programs as block/
formula grants using its Program Assessment and Rating Tool. OMB found 
that the Coastal Management Program has been effective in achieving 
participation from coastal states, but also concluded that the program 
lacks the long-term and annual performance measures needed to 
demonstrate that the program has been effective. In response to those 
findings, the CZM Program was directed to complete the development of 
outcome oriented performance measures. This task is currently underway. 
In addition, some funding was redirected toward programs which can 
better demonstrate progress.
    The Administration is currently developing its response to the U.S. 
Commission on Ocean Policy. NOAA is participating in discussions with 
the OMB and the Council on Environmental Quality regarding the 
Administration's response to recommendations related to the Coastal 
Zone Management Act.

    Question 2. The draft report from the U.S. Commission on Ocean 
Policy also highlights the ``significant challenge'' posed by nonpoint 
source pollution. Despite the existing problems associated with 
nonpoint source pollution, funding for NOAA's Coastal Nonpoint 
Pollution Control Programs has been completely eliminated in the FY 
2005 budget request.

  <bullet> Why has this program been zeroed out?
  <bullet> What is the agency's view on S. 218, the CZMA 
        reauthorization bill, which would enhance states' abilities to 
        address coastal development and polluted runoff? Does the 
        agency have any suggested improvements?

    Answer. In times of limited growth for discretionary government 
spending, the Administration often has to make difficult choices 
concerning the allocation of these resources. Other Federal agencies, 
especially the U.S. Environmental Protection Agency and U.S. Department 
of Agriculture, invest heavily in polluted runoff programs. In 
addition, states can continue to rely on other sources of financial and 
technical assistance from NOAA, including funding from section 306 of 
the Coastal Zone Management Act as well as management tools and 
scientific research developed and disseminated by NOAA regarding the 
sources, impacts, and management of polluted runoff.
    States and territories have largely completed comprehensive plans 
to address land-based sources of runoff from agriculture, forest 
harvesting, urban construction and development, marina activities, and 
modifications of natural drainage patterns. NOAA believes that its role 
in nonpoint pollution control continues to be important and beneficial, 
and will continue to work with state partners and other Federal 
agencies to best leverage limited resources to address nonpoint 
pollution. NOAA is requesting funds in other areas to support science, 
education, and assistance efforts to improve the understanding and 
management of nonpoint source pollution, and states may also choose to 
support implementation activities through their Coastal Zone Management 
grants. NOAA is confident that existing and incrementally improved 
state coastal nonpoint programs will yield coastal water quality 
benefits.
    Given the inextricable link between coastal development, especially 
the expanding built environments in coastal watersheds, and polluted 
runoff, NOAA generally supports the intent of the language in S. 218 
that provides greater emphasis on community planning efforts to address 
growth issues in a sustainable manner and allows for the expenditure of 
CZMA funds to coordinate and implement existing State coastal nonpoint 
programs. NOAA believes it will be critical to clarify and strengthen 
the role of State coastal programs (i.e., the CZMA's role) in 
addressing land-based sources of pollution on a watershed-basis by 
improving the ability of coastal States to effectively plan for and 
manage coastal development and to conserve coastal areas that have 
significant ecological, recreational or other values.
    A coordinated approach to managing and guiding coastal conservation 
and development is needed to accommodate growth while protecting 
ecologically and functionally important habitats. NOAA thus supports 
amendments to the CZMA that enable protection of the most critical 
coastal resources and target growth and redevelopment to appropriate 
areas within coastal watersheds.

    Question 3. In FY 2004, Congress appropriated $33.8 million for the 
National Estuarine Research Reserves System (NERRS) Land Acquisition 
and Construction account, however the Administration proposes to 
decrease this amount by $26.5 million in the FY 2005 budget, leaving 
only $7.25 million. The states have recommended funding of at least $15 
million for this account, and $60 million for a national coastal land 
acquisition program such as under the Coastal and Estuarine Land 
Conservation Program created by Congress.
    According to the Ocean Commission, a dedicated land conservation 
program for coastal areas and estuaries is an important tool for 
preserving coastal health, and such a program should be authorized and 
funded through amendment of the CZMA.
    In light of this recommendation, why is the Administration 
proposing such a low level of funding for the NERRS Land Acquisition 
and Construction account?
    Answer. The Administration's Request for the NERRS Land Acquisition 
and Construction account will permit several high priority construction 
and land acquisition projects to be completed. In times of limited 
growth for discretionary government spending, we must make difficult 
choices concerning the allocation of those resources.
Oceans and Human Health
    Question 4. The U.S. Commission on Ocean Policy dedicated an entire 
chapter of its preliminary report to the topic of oceans and human 
health, highlighting both the benefits from products developed from 
marine organisms, and the negative health risks posed by marine 
microorganisms. The Commission recommended the establishment and 
funding of a national Oceans and Human Health Initiative. I introduced 
this legislation along with Senators Stevens and Inouye, and it has 
passed the Senate and been referred to the House. However, despite the 
attention given to it by both Congress and the Commission on Ocean 
Policy, the Administration has proposed no funding for the Oceans and 
Human Health Initiative in the FY 2005 budget request. The Oceans and 
Human Health Initiative was funded at approximately $10 million in FY 
2004. Why has the Administration requested no money for this initiative 
in the FY 2005 budget?
    Answer. Under NOAA's Ecosystems Mission Goal, NOAA has already been 
supporting activities related to oceans and health applications (e.g., 
harmful algae blooms). NOAA does appreciate continued support for our 
current programs related to human health and the oceans.
    With FY03 and FY04 funding, the Oceans and Human Health Initiative 
(OHHI) has established external and internal peer-reviewed grants 
programs, distinguished scholars and traineeship programs, education 
and outreach activities, and three recently established NOAA OHHI 
Centers of Excellence in Seattle, WA, Charleston, SC, and Ann Arbor, 
MI, with much of their funding going to external partners. The Centers 
are focusing on issues of beach safety and water quality, seafood 
quality, coastal pollution, marine genomics, and marine toxins and 
pathogens.

    Question 5. Are you aware that this country suffers economic losses 
of close to $100 million a year due to marine toxins resulting from 
harmful algal blooms? In light of this statistic, do you feel it is 
appropriate to leave the Oceans and Human Health Initiative unfunded, 
and other coastal ocean science programs, including the Sea Grant 
Program, at low or under funded levels?
    Answer. Harmful algal blooms (HABs) are indeed a costly and 
pervasive problem in our Nation's coastal waters. HABs produce toxins 
that contaminate shellfish, disrupt ecosystems, cause fish and marine 
mammal mortalities, and have resulted in significant economic losses. 
Virtually every coastal state has reported major harmful algal blooms. 
NOAA intends to continue its research into the causes and effects of 
HABs, and is requesting a total of $8.9M specifically for Harmful Algal 
Bloom and Pfiesteria research in FY 2005. In addition to these 
activities NOAA CoastWatch provides near real time satellite ocean 
remote sensing support to the NOAA HAB forecast system. With respect to 
data management of HAB data, NOAA is developing a pilot project in the 
Gulf of Mexico with the NOAA National Coastal Data Development Center, 
EPA Gulf of Mexico Program Office, National Association of Marine 
Laboratories, Naval Meteorology and Oceanography Command, and the U.S. 
Coastal Global Ocean Observing System Office to implement an end-to-end 
system from observations, through products, to archive at the National 
Oceanographic Data Center.
    The direct and indirect impact of marine toxins related to harmful 
algal blooms on human health is one of the areas covered by the Oceans 
and Human Health Initiative. The three recently established NOAA OHHI 
Centers of Excellence will conduct, among other things, research on 
various human health aspects of, and prediction of, freshwater and 
marine toxins related to harmful algal blooms. Marine toxins are also 
addressed through the OHHI peer-reviewed grants program, and the 
Distinguished Scholars program.
    The interaction between oceans and human health is recognized as an 
important area of research within NOAA. NOAA's National Centers for 
Coastal Ocean Science (NCCOS) has a long history of work in areas 
covered within the Oceans and Human Health Initiative, such as harmful 
algal blooms, marine toxins and pathogens, chemical contaminants, 
seafood safety, beach and shellfish bed closings, and other coastal 
public health issues. In addition, NOAA scientists have experience 
working with marine organisms as sentinel species and for biomedical 
research. The recent construction of the Hollings Marine Laboratory--a 
multi-institutional, multi-disciplinary facility providing science and 
biotechnology applications to sustain, protect, and restore coastal 
ecosystems, emphasizing linkages between the marine environment and 
human health--provides NOAA scientists and associated researchers with 
state of the art equipment to conduct this type of research. NOAA's FY 
2005 request maintains funding for the Hollings Marine Lab and other 
NCCOS Centers to continue this important work. The FY 2005 request 
would also provide $8.7M for the Coastal Ocean Program. The Coastal 
Ocean Program is highly regarded in the research community, and has a 
reputation for supporting high-quality scientific research, which 
delivers information to assist decision makers in meeting the 
challenges of managing our Nation's coastal resources.
NASA's Earth Observing Satellites
    Question 6. The National Research Council, in its 2002 Assessment 
of the Usefulness and Availability of NASA's Earth and Space Science 
Mission Data, noted one problem with NASA's satellite programs--NASA 
budgets for development, launch, and short mission life but not 
continued operations. On the other hand, Earth Science Data becomes 
more scientifically useful as it is taken over a longer period (so that 
scientists can see often slow changes or trends.
    The Ocean Commission recommended that ``Congress should transfer 
National Aeronautics and Space Administration's (NASA's) Earth 
environmental observing satellites, along with associated resources, to 
the National Oceanic and Atmospheric Administration (NOAA) to achieve 
continued operations. NOAA and NASA should work together to ensure the 
smooth transition of each Earth environmental observing satellite after 
its launch.''
    Do you agree with this recommendation? Would we benefit 
scientifically and operationally from having NASA's earth science 
programs integrated within NOAA?
    Answer. The Administration is currently reviewing the Ocean 
Commission Report, including recommendation 26-8. The National 
Aeronautics and Space Administration (NASA) provides critical research 
and development in support of NOAA's role as the Nation's civil 
operational environmental satellite agency. NOAA and NASA have been 
working on transitioning select NASA research missions into operations 
at NOAA, and will continue to explore opportunities to improve the 
transition process.
Ocean Exploration and Research
    Question 7. According to the Ocean Commission, about 95 percent of 
the ocean floor remains unexplored. Past exploration has dramatically 
increased our knowledge about the rich deep-sea ecosystems in an area 
we once thought was void of all life. However, the Administration has 
proposed decreasing the budget for ocean exploration by $3.1 million 
from the FY04 level of $13.1 million. You have also proposed reducing 
funding for the National Undersea Research Program by $6 million from 
the current level of$16.8 million. I find these proposed decreases 
extremely surprising given that the Ocean Commission has recommended 
funding of $110 million for ocean exploration in its preliminary 
report. Why is the Administration proposing to decrease the exploration 
budget when current levels are already far less than what the Ocean 
Commission says is needed?
    Answer. The President's FY 2005 budget includes some reductions to 
fund higher priority initiatives in the NOAA budget, and we believe 
that we can still operate a productive program at the levels provided 
in the President's FY 2005 request. Some funds that were formerly 
allocated to Ocean Exploration (OE) and NOAA's Undersea Research 
Program (NURP) are being directed toward ocean observing, which also 
leads to ocean discovery and a greater understanding of our oceans.
    The request represents only an 8 percent reduction to the NURP 
ongoing program and a 13 percent reduction to the OE ongoing program. 
The request does not include congressionally directed funding for NURP 
National Institute for Undersea Science and Technology (NIUST), OE 
Smithsonian East Wing Oceans Exhibit, or OE submersible microtechnology 
research.
    Through the President's FY 2005 Budget, NOAA clearly embraces the 
value of exploration and research in the oceans by the inclusion of OE 
and NURP. NOAA is currently the only Federal agency to explicitly 
support programs dedicated to the exploration of the oceans and to 
providing scientists with access to advanced underwater technologies 
(e.g., human occupied submarines, autonomous and remotely operated 
underwater vehicles, advanced diving techniques, and the Aquarius-the 
world's only undersea laboratory) for research directed at NOAA's 
stewardship responsibilities.

    Question 8. Do you feel that the proposed funding level for ocean 
exploration will give NOAA the resources it needs to establish a 
coordinated ocean exploration program and develop new technology?
    Answer. We are enhancing the value and the amount of science that 
our ocean science dollars generate by leveraging funding with other 
programs inside NOAA. Through our participation in the National Ocean 
Partnership Program, we are working with other Federal agencies, such 
as the National Science Foundation and the Office of Naval Research to 
leverage funding outside the agency.
    NOAA will sustain its role of leadership in exploration in the 
coming years. Our program was operated in the first three years as a 
demonstration of what potential there was in making such scientific 
investments, many of them high risk. Those risks have paid off and we 
see the value, nationally, in the fruits of exploration (e.g., new 
species discovered, 50,000 miles mapped). We are now aligning the 
program along a course that we will be taking in the coming years that 
involves mapping the multiple aspects of the ocean floor and habitat 
and examining what these new maps reveal at finer scales. We shall 
continue to engage the academic community in the planning and 
participation of exploration activities. We also use the NOAA 
Exploration program to promote the excitement and discovery of oceans 
in our education and outreach activities.
Ocean Education
    Question 9. The Ocean Commission's preliminary report has a strong 
emphasis on education, and many of its recommendations relate to 
efforts which can be undertaken by NOAA. In fact, ocean education is 
part of NOAA's mission. If NOAA is to take the lead on ocean education, 
it would seem that one could expect NOAA to support its high-profile 
and long-standing education programs. However the FY 2005 budget 
proposes eliminating all funding for Dr. Ballard's JASON Project, which 
had previously been funded at $2.5 million, and also proposes a 
decrease in funding for the National Sea Grant College Program, even 
though the Ocean Commission stated that Sea Grant's current level of 
funding, just over $60 million, is inadequate to meet its ocean 
education goals considering only 5 percent of the program's budget goes 
towards education. Admiral, given your funding priorities, it appears 
that you do not believe NOAA should not be taking the lead on ocean 
education in the US. Is that the case? Please explain.
    Answer. During my tenure at NOAA, I have made significant strides 
to affirm our commitment to education as NOAA priority. NOAA has been a 
leader in this area for many years through the National Marine 
Sanctuary Program, the National Estuarine Research Reserves, the 
National Sea Grant College program and the Teacher at Sea program. More 
recently, NOAA has brought ocean education to students and teachers 
through NOAA's Office of Ocean Exploration. To ensure coordination and 
leadership across the Agency, NOAA created an Office of Education and 
Sustainable Development and a NOAA Education Council comprised of 
representatives from major educational programs in the Agency. 
Together, the Office and Council lead NOAA's efforts to improve 
environmental literacy through education.
    NOAA's currently spends approximately $32 million to support formal 
and informal education activities related to NOAA sciences. This 
estimate captures the major NOAA program components, such as the 
National Marine Sanctuary Program, the National Estuarine Research 
Reserves, the National Sea Grant College program, the Teacher at Sea 
program, the Office of Ocean Exploration, the Education Partnership 
Program for Minority Serving Institutions, and the Office of Education 
and Sustainable Development. Additional education-related resources are 
provided through research grants and fellowship opportunities that 
support student of higher education.
    NOAA remains committed to its strong and growing partnership with 
colleges and universities around the country. All NOAA Line Offices 
participate in partnerships such as Cooperative Institutes and 
collocation of NOAA offices and programs at universities. Through these 
collaborations, we are able to incorporate current university science 
and technology into NOAA research and operations.
    Like all Federal agencies, NOAA has limits on its ability to 
dedicate resources across all of its mission areas. In times of limited 
growth for discretionary government spending, we must often make 
difficult choices concerning the allocation of those resources.

    Question 10. The Ocean Commission has stated that continuing annual 
costs for ocean education should total close to $250 million. Do you 
feel that this estimate is in the right ballpark?
    Answer. With the release of the final report on September 20, the 
Commission revised its estimate of continuing annual costs for ocean 
education to $136 million across Federal agencies. The recommendations 
of the Ocean Commission are being carefully studied by the 
Administration, and assessments of funding for specific efforts, such 
as education, will follow.
Marine Mammals and Protected Resources
    Question 11. I find the decrease in funding for certain species and 
programs alarming. It seems that the FY 2005 budget request would 
decrease funding for Hawaiian Sea Turtles by $4 million. Similarly, 
funding for Steller Sea Lions has been decreased by nearly $6 million. 
Where the funding request would decrease funding from FY 2004 enacted 
levels for specific species and programs please provide a detailed 
explanation of the rationale for those decreases.
    Answer. The President's FY 2005 budget request represents a 
balanced and prioritized look at the needs of the entire protected 
species program. We have identified eight program areas where the FY 
2005 President's budget request is below the FY 2004 appropriated 
level. These programs include Right whales, Hawaiian sea turtles, 
Steller Sea Lions, Alaska Harbor seals, Bottlenose Dolphin research, 
NFWF species management (National Fish and Wildlife Foundation), 
California Sea Lions, and North Pacific Southern Resident Orca. The 
requested level of funding for these program areas ensures a continued 
commitment to the conservation and management of protected species. 
Considering the current tight budget constraints, the requested amounts 
will allow NOAA to focus on the most critical information and 
management needs.

    Question 12. One of the most alarming proposed budget cuts for this 
office is the amount of funding for Right Whales. The North Atlantic 
Right Whale is one of the two most endangered marine mammal species in 
U.S. waters. Only a single population of300 remain, and these animals 
are under constant threats from ship strikes and gear entanglement. 
Recently national news focused on Kingfisher, a 1-year old Right Whale 
who became entangled in fishing gear off the coast of South Carolina. 
Given the significantly low population numbers of Right Whales and the 
recent public attention raised by Kingfisher, why is the Administration 
proposing to decrease funding for Right Whales to only $5.8 million? 
This is less than half of the FY 2004 enacted level of$12 million!
    Answer. You are correct that the two human-caused sources of 
mortality to right whales--ship strikes and interactions with fishing 
gear--must be reduced in order to recover the species. We have 
identified and implemented some management measures to address both of 
these threats. The search for additional solutions is ongoing.
    The Administration's request of $5.85M for right whales does 
represent a significant program for the conservation of right whales. 
Considering the current tight budget constraints, the requested level 
of funding will allow NOAA to focus on the development and 
implementation of the most critical gear and vessel interaction 
measures.

    Question 13. Please explain what funding is being requested for the 
marine mammal stranding and ocean health program, and the basis for the 
cuts in this program, particularly when the importance of such ocean 
health programs has been recognized by the Ocean Commission.
    Answer. NOAA recognizes the importance of the marine mammal health 
and stranding response program and has requested level funding for the 
program in FY 2005. Funding for the marine mammal health and stranding 
response program is derived from several budget lines including the 
Protected Resources Research and Management Services Science and 
Technology base ($680K), Marine Mammal Protection--Base ($250K), 
Endangered Species Act--Other Species ($800K), and Marine Mammal 
Strandings (Prescott grants) ($4,000K). Funding at the requested level 
would not represent a cut to the program.

    Question 14. The Office of Protected Resources has been falling 
behind in many of its core areas. Recovery and conservation plans have 
not been timely produced, permitting for takings of marine mammals has 
dragged nearly to a halt, the process for take reduction teams in many 
areas is not producing effective results, and stock assessments are not 
being carried out as required by law. Please explain the staffing and 
resource allocations for these core areas, the levels for each in the 
FY 2005 request, and whether the request is an increase or decrease 
compared with FY 2004 levels.
    Answer. The Protected Species program is making progress in 
addressing the issues of recovery planning, permits, take reduction 
planning, and stock assessments. The program has completed guidance for 
recovery planners, and is in the process of developing and revising 
several plans. The draft Atlantic salmon recovery plan has been 
released for public review and Pacific salmon recovery plans are 
nearing completion with several drafts expected in FY 2005. The program 
expended approximately $15.1M on recovery planning and implementation 
in FY 2004, with significant effort devoted to completion of sub-basin 
plans for Pacific salmon, completion of the draft Atlantic salmon plan, 
and continued work on completion of the Hawaiian Monk Seal, Steller Sea 
Lion, North Atlantic Right whale, Kemp's ridley sea turtle, and 
Atlantic Loggerhead sea turtle recovery plans. The President's FY 2005 
budget request contains an increase of $1M specifically for recovery 
planning.
    Improvements are being made to the process for obtaining marine 
mammal and ESA permits, especially in regards to National Environmental 
Policy Act (NEPA) analysis. The President's FY 2005 request contains a 
$5M increase for NEPA activities, $2M of which would be used to 
complete NEPA analyses needed to continue streamlining the MMPA and ESA 
permitting process. The program expended approximately $3.4M on 
permitting activities in FY 2004.
    The Protected Species program has suffered delays in completing 
take reduction plans for marine mammals, largely due to lack of 
adequate information. While the program did experience cuts to marine 
mammal funding in FY 2004, we were still able to fund surveys that will 
be critical to completing take reduction planning efforts for Atlantic 
offshore cetaceans. However, without funding at the FY 2005 requested 
level, the program will be significantly impaired, leading to 
additional delays in completing required stock assessments and take 
reduction planning efforts.
    Funding in FY 2005 for take reduction planning efforts and marine 
mammal stock assessments will be provided from three areas: Protected 
Resources Science and Technology Base funding, Marine Mammal Protection 
base funding, and Protected Species Stock Assessments and Mortality 
estimation. The Protected Resources Stock Assessments and Mortality 
Estimation funding line is a new item and contains a $1M increase 
specifically for stock assessments. The Marine Mammal Protection base 
funding and Protected Species Science and Technology base funding were 
funded at $16.1M in FY 2003, $12.4M in FY 2004, and are requested to be 
funded at $19.0M in FY 2005. However, not all of the funding in these 
two lines is used for stock surveys and assessments.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                  Vice Admiral Conrad C. Lautenbacher
NOAA Fisheries Pacific Islands Region
    Question 1. On April 21, 2003, just over one year ago, NOAA 
designated the Pacific Islands Region (PIR). Although the PIR has been 
in existence for over a year, it still does not have a Regional 
Administrator, dedicated General Counsel, or many other critical 
positions needed to administer the region. The failure to fill these 
critical positions calls into question NOAA's commitment to 
establishing the PIR as a true, fishery region within the National 
Marine Fisheries Service (NOAA Fisheries) on equal footing with its 
peers.
    Moreover, a statement made by Dr. Bill Hogarth, director of NOAA 
Fisheries, in a Department of Commerce press release announcing the 
establishment of the PIR, casts further doubt on NOAA's commitment to 
the PIR: ``We will have senior NOAA Fisheries leadership directing our 
scientific research and management of the living marine resources in 
the Western Pacific. This will ensure that the field structure is 
aligned to accurately and effectively reflect the needs of the agency's 
constituencies as well as provide needed conservation and management 
programs in this area.''
    Finally, the President's Fiscal Year 2005 budget request for the 
PIR falls disappointingly short of my own analysis of my constituents' 
needs. These three factors--the failure in staffing, NOAA's stated 
intention to manage the PIR from national headquarters, and the 
budgeting shortfall-raise grave doubts as to the future of the PIR.

  <bullet> What long-term budget adjustments does NOAA plan to ensure 
        that the PIR will have the same financial support that its 
        sister regions enjoy?

  <bullet> How long does NOAA intend to ``have senior NOAA Fisheries 
        leadership directing'' the PIR? What is the justification for 
        having the regional needs of Hawaii's constituencies met by 
        policy-makers over 5000 miles away, with no day-to-day 
        accountability to the people they will be affecting?

  <bullet> When will the PIR enjoy staffing levels commensurate with 
        its status of a fisheries region, including its full complement 
        of administrators, financial experts, and legal counsel?

    Answer. NOAA is committed to providing the necessary financial 
support to the Pacific Islands Region (PIR). The PIR and Pacific 
Islands Science Center (PISC) have been established as separate 
financial management centers within NOAA Fisheries with their own 
budgets. Priority is being placed in the out years budget planning 
process to ensure the PIR has the resources to carry out its mission 
responsibilities consistent with the other Fisheries regions.
    Leadership is being provided directly on-site in Hawaii and no 
longer is being directed from afar. Both the PIR and PISC have all 
senior managers in place and have authority over their respective 
organizations just like the other five Fisheries regions and science 
centers. Both the PIR and PISC are headed by Senior Executive Service 
directors and have a full complement of GS-15 (Pay Band V) Deputies and 
Division Chiefs (same as the other Fisheries Regions and Science 
Centers).
    Progress has been made to fully staff the PIR and PISC with 
administrators, financial experts, and legal counsel. Staff is in place 
to allow the PIR and PISC to conduct and manage their own operations. 
The requirements of staffing to meet mission are addressed annually 
based on appropriation level and annually during the budget formulation 
process for future years.
NOAA Collaboration with the Extra-Mural Research Community
    Question 2. NOAA has a long, successful history of collaboration 
with the extra-mural research community through such endeavors as the 
National Undersea Research Program, Joint Research Institutes, Sea 
Grant, Regional Integrated Sciences and Assessments (RISA), and other 
such programs under the Office of Global Programs, which have lead to 
significant scientific advances in such areas as climate and global 
change, physical oceanography, and fisheries oceanography. In Hawaii, 
we are particularly proud of the long-standing, close collaboration 
between the University of Hawaii and NOAA researchers through the Joint 
Institute for Marine and Atmospheric Research (JIMAR) and Sea Grant. We 
are also excited to have become a part of the RISA program through the 
East-West Center. How are collaborative efforts though Joint Research 
Institutes, Sea Grant, and RISAs accounted for in NOAA's new strategic 
plan? Overall trends throughout the Administration's budget request 
show funding reductions across the board for such collaborative 
efforts. What is the President's position on the value of programs that 
promote federal-academic collaborative efforts through joint and 
cooperative institutes. If the Administration no longer sees a need for 
close collaboration with the academic community, what plans does it 
have to replace the expertise, know-how, and facilities that academic 
partners bring to the table? Finally, please describe NOAA's 'in-house' 
capacity to conduct cutting-edge research without close collaboration 
with the academic community?
    Answer. NOAA is supportive of external-NOAA partnerships, and 
believes that harnessing the intellectual capabilities of the external 
community is fundamental to achieving its missions. NOAA strives to 
engage in effective and productive partnerships, and regards close 
collaboration with the academic community as essential to conducting 
cutting-edge research. However, the NOAA Research Review Report pointed 
out that NOAA could do a better job of documenting the role of 
extramural research in its budget submission to the Department of 
Commerce, the Office of Management and Budget, and to Congress. The 
report said that NOAA also should highlight the role of extramural 
research in its key documents, such as the NOAA Strategic Plan and new 
Five-Year Research Plan.
    NOAA's FY 2005 to FY 2010 draft Strategic Plan is currently out for 
public review. The draft plan includes language on partnerships and 
considers collaborative efforts valuable. For example, an 
Organizational Excellence and Mission Support Goal in the draft plan 
states: ``increase number of facilities with improved collocation of 
NOAA services and partners.'' The draft plan also states that to ensure 
sound, state-of-the-art research, NOAA will, ``remain committed to our 
external partners and will leverage their abilities to assist us in 
meeting our research goals and in educating the next generation of 
scientists.''
    NOAA's Five-Year Research Plan draft, FY 2005 to FY 2009, is also 
out for public review. The Research Plan states, ``Partnerships are 
essential to maximize resources, advance research, and address complex 
problems.'' The Plan recognizes collaborative efforts though Joint 
Research Institutes, Sea Grant, and RISAs. Language from the Plan 
states:

        ``NOAA is committed to maintaining a strong relationship with 
        the external research community by expending a significant 
        portion of our research funding outside NOAA. In addition to 
        supporting individual scientists who respond to specific 
        announcements of opportunity, NOAA funding supports research at 
        Joint and Cooperative Research Institutes, and at various 
        academic and other institutions through the National Sea Grant 
        Program and National Undersea Research Program. In particular, 
        NOAA's Joint and Cooperative Institutes-academic institutions 
        that participate in a large portion of NOAA's research-play a 
        vital role in enhancing our current weather and climate 
        prediction capabilities; they also play an essential role in 
        broadening NOAA's ability to provide an expanding array of 
        environmental assessment and predictions and to address 
        regional forecasting needs.''

    Question 3. Due to the isolated nature of the Insular Pacific, 
these programs provide one of the critical mechanisms for collaboration 
with external scientific communities. Please provide a breakdown of 
funding for each program specific to the Insular Pacific for Fiscal 
Years 2000 through 2005.
    Answer. Please see accompanying Microsoft Excel spreadsheet.

    Question 4. Please provide a breakdown of funding for NOAA 
programs, both internal and external for programs specific to the 
Insular Pacific (defined as American Samoa, Guam, Northern Marianas, 
Republic of the Northern Marianas, the Federated States of Micronesia 
and Palau) from FY 2000 to FY 2005.
    Answer. (see table)

                                Funding for NOAA Programs in the Insular Pacific
                                                  [in millions]
----------------------------------------------------------------------------------------------------------------
                  NOAA Line Office                     FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005
----------------------------------------------------------------------------------------------------------------
National Ocean Service
  National Water Level Program                           0.000     0.000     0.000     0.000     0.000     0.200
  Coral Reef Conservation Program                        0.300     3.600     5.200     3.400     3.900     3.400
  Marine Protected Areas                                 0.000     0.000     0.000     0.000     0.000     0.100
  Marine Sanctuaries Program                             0.300     0.400     0.300     0.500     0.400     0.400
Subtotal: National Ocean Service                         0.600     4.000     5.500     3.900     4.300     4.100
 
National Marine Fisheries Service
  NMFS Pacific Islands Region                            0.800     0.900     0.700     1.200     1.100     1.300
  NMFS Pacific Islands Center                            0.035     0.012     0.018     0.019     0.024     0.025
Subtotal: National Marine Fisheries Service              0.835     0.912     0.718     1.219     1.124     1.325
 
Office of Oceanic and Atmospheric Research\1\
  Sea Grant                                              0.326     0.222     0.263     0.366     0.259       TBD
  JIMAR                                                  0.000     0.000     0.000     0.746     0.346       TBD
  OGP/RISA                                               0.295     0.005     0.126     0.284     0.176     0.190
  CMDL                                                   0.425     0.425     0.425     0.585     1.075       TBD
Subtotal: Office of Oceanic and Atmospheric Resarech     1.046     0.652     0.814     1.981     1.856     0.190
 
National Weather Service
  WFO Guam and CNMI                                      2.509     2.513     2.621     2.831     3.096     3.079
  WFO American Samoa                                     0.750     1.000     1.357     1.700     1.320     1.000
  FS Micronesia, Rep. Marshall Is, and Rep of            0.000     0.000     0.000     0.000     3.512     3.512
   Palau\2\
Subtotal: National Weather Service                       3.259     3.513     3.978     4.531     7.928     7.591
 
National Environmental Satellite Data and                0.000     0.000     0.000     0.000     0.000     0.000
 Information Service
 
NOAA Marine and Aviation Operations
  KA'IMIMONANA                                           1.800     2.100     2.000     1.700     1.800     2.000
  OSCAR SETTE                                            0.000     0.000     0.000     2.100     1.800     1.900
  CROMWELL                                               1.500     1.500     1.500     0.000     0.000     0.000
Subtotal: NOAA Marine and Aviation Operations            3.300     3.600     3.500     3.800     3.600     3.900
----------------------------------------------------------------------------------------------------------------
TOTAL                                                    9.040    12.677    14.510    15.431    18.808    17.106
----------------------------------------------------------------------------------------------------------------
\1\ Most OAR funding for these for FY 2005 is yet to be determined
\2\ Funding for Weather Services for the Federated States of Micronesia, Rep of the Marshall Is, and the Rep. Of
  Palau was provided in FY 2000-2003 by the Department of Interior and not through NOAA Appropriations. These
  amounts were $3.8M in FY 2000, $5.38M in FY 2001, $5.3M in FY 2002, and $3.8M in FY 2003. Funding in FY 2001
  and FY 2002 included $3.08M in construction funds for the WSO Yap and WSO Majuro.

                                 ______
                                 
      Response to Written Question Submitted by Hon. Ron Wyden to 
                  Vice Admiral Conrad C. Lautenbacher
    Question 1. PacifiCorp, an electric utility that owns the Condit 
hydroelectric project on the White Salmon River in Washington, has 
entered into a settlement agreement with various state and Federal 
Government agencies as well as environmental organizations and Indian 
tribes to decommission and remove the Condit project. Removal of the 
project will cause the release of sediment currently located behind the 
dam into the lower portion of the White Salmon River and the confluence 
of the White Salmon with the Columbia River. I have joined Senators 
Cantwell and Murray in seeking congressional authorization for the 
Corps of Engineers to dredge the sediment resulting from the project 
removal because removal of the sediment would improve navigability and 
produce substantial environmental benefits, including enhancement of 
endangered fish populations such as Chinook salmon and steelhead. 
Wouldn't you agree with me that the Corps of Engineers, if it 
undertakes this dredging activity, should receive credit under the 
biological opinion covering the Federal Columbia River System Power 
System (FRCPS)? Wouldn't this dredging contribute to off-site 
mitigation requirements for Endangered Species Act (ESA) listed species 
which are subject of the FRCPS biological opinion or subsequent ongoing 
ESA Section 7 consultation requirements? If you agree, would you notify 
the Corps of Engineers that this dredging will benefit ESA listed 
species and should be given credit under the FRCPS biological opinion 
and provide me with a copy of such notice?
    Answer. On January 17, 2003, NOAA Fisheries' Northwest Regional 
Office sent a letter to Mr. Witt Anderson of the U.S. Army Corps of 
Engineers' Northwest Division specifically acknowledging that dredging 
the sediment behind the Condit hydroelectric project would benefit fish 
species listed under the ESA. In the same letter, NOAA Fisheries 
informed the Corps of Engineers that dredging sediment deposited in the 
mouth of the White Salmon River following removal of Condit Dam would 
qualify for credit as off-site mitigation. A copy of the letter is 
attached.
                               Attachment
                       United States Department of Commerce
            National Oceanic and Atmospheric Administration
                          National Marine Fisheries Service
                                     Portland, OR, January 17, 2003

Witt Anderson, Chief,
Fish Management Office,
U.S. Army Corps of Engineers, Northwestern Division,
Portland, OR.

Subject: Condit Dam, White Salmon River, Washington

Dear Witt Anderson:

    In 1999, the National Marine Fisheries Service (NOAA Fisheries) 
entered into a settlement agreement with Pacificorp and other parties 
which requires Pacificorp to remove its Condit Project, located on the 
White Salmon River in Washington. The settlement is currently pending 
before the Federal Energy Regulatory Commission (FERC). The dam 
removal, scheduled to occur in 2006, will restore access by Endangered 
Species Act (ESA) listed chinook salmon and steelhead to approximately 
30 miles of habitat above the dam and will improve river habitat below 
the dam over the long term. Dam removal will release a large quantity 
of sediment that has accumulated behind the dam into the lower 3 miles 
of the White Salmon River. It is expected that a large share of this 
sediment will settle near the mouth of the river. It is possible that a 
portion of this sediment may need to be removed to maintain a tribal 
in-lieu access site for fishing. At this time, it is uncertain how much 
sediment will actually deposit, or how much removal will be required, 
if at all. However, preliminary estimates assume a cost of 
approximately $4 million for sediment removal (cost estimates assume 
that removed sediment would be discharged in the Columbia River).
    The settlement limits Pacificorp expenditures for dam removal to 
$13,650,000 (1999 dollars). NOAA Fisheries and other parties to the 
settlement agreed that if the cost cap was likely to be exceeded, and 
alternative funding was not provided by other parties. Pacificorp would 
not be obligated under the agreement to remove the project. At this 
time, it appears that it will not be possible to complete the project 
removal within the settlement cost limit.
    During the negotiation, the parties discussed various alternatives 
for obtaining additional funding to reduce the risk of exceeding the 
cost cap. During the course of the negotiation, NOAA Fisheries and 
other parties discussed with the U.S. Army Corps of Engineers (Corps) 
permitting issues related to dam removal. More recently, NOAA Fisheries 
has discussed with the Corps the possibility of Corps funding or 
undertaking dredging activities that may be required. Although the 
Corps has no responsibility to contribute or otherwise support the 
project, there is high potential for benefits to ESA listed fish. 
Consequently, the Corps requested from NOAA Fisheries a preliminary 
assessment of whether the Corps could receive credit under the December 
21, 2000, biological opinion covering the Federal Columbia River Power 
System (FCRPS) for dredging sediment that would be deposited near the 
mouth of the White Salmon action agency projects proposed to implement 
actions set forth in the reasonable and prudent alternative (RPA) of 
that biological opinion. A copy can be found at http://
www.nwr.noaa.gov//hydrop/hydroweb/fedrec.htm.
    Our preliminary evaluation indicates that a Corps action to dredge 
sediment deposited at the mouth of the White Salmon River following 
removal of Condit Dam could qualify for credit as off-site mitigation. 
The Corps' contribution to the dam removal effort would increase the 
likelihood that Condit Dam would be removed, allowing access to nearly 
30 miles of spawning and rearing habitat listed chinook salmon and 
steelhead. This project could implement RPA action item 149 as a Corps 
demonstration project. Any specific proposal would have to be submitted 
to NOAA Fisheries for evaluation and a formal determination.
    I recognize that at this stage the Corps has not determined whether 
it has an interest in this project or what authority and funding 
sources could apply. However, in view of the benefit to listed 
salmonids and the opportunity to aid achievement of FCRPS biological 
opinion performance standards, NOAA Fisheries strongly encourages the 
Corps to seek means to partner in the project. If at some point in the 
future a determination is made that the Corps can participate in this 
project, NOAA Fisheries would reserve the right to consider funding 
implications, if any, e.g., competition for funds on other aspects of 
Corps implementation of the FCRPS biological opinion.
    If you need any additional information, please do not hesitate to 
contact me.
            Sincerely,
                                            Brian J. Brown,
                                  Assistant Regional Administrator,
                                                         Hydro Program.
Gwill Ging, USFWS
Gail Miller, Pacificorp
Michael P. O'Connell, Stoel Rives
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                  Vice Admiral Conrad C. Lautenbacher
    Question 1. Were you aware of allegations that government observers 
working under the authority of the Inter-American Tropical Tuna 
Commission (IATTC) on Mexican tuna-fishing boats were regularly taking 
bribes to report tuna as ``dolphin-safe,'' even though they were caught 
on dolphins? If so, when did you become aware of these allegations?
    Answer. NOAA Fisheries is aware of allegations that observers 
employed by Mexico's national observer program, a component of the On-
Board Observer Program operated under the Agreement on the 
International Dolphin Conservation Program (AIDCP), accepted bribes to 
underreport dolphin sets. Allegations of this type are not unique to 
the AIDCP On-Board Observer Program. Since the program began, 
allegations have been made that observers are taking bribes to alter 
the data they report. One allegation that recently received significant 
media attention was communicated verbally to NOAA Fisheries employees 
aboard a NOAA research vessel in 1999. NOAA Fisheries is concerned with 
the potential for observers to be bribed and has been working to 
investigate these allegations and strengthen the AIDCP On-Board 
Observer Program since it was developed.

    Question 2. Did anyone at the National Oceanic and Atmospheric 
Administration (NOAA) investigate these allegations? Mr. William T. 
Hogarth, Assistant Administration for Fisheries, National Marine 
Fisheries Service, stated before the House Fisheries Conservation, 
Wildlife and Oceans Subcommittee that the IATTC investigated these 
allegations. Did you or anyone at NOAA ask for a report of the IATTC's 
findings?
    Answer. NOAA Fisheries investigates allegations of activities that 
occur on U.S. vessels or by U.S. citizens. For allegations concerning 
foreign vessels and crews, NOAA Fisheries Enforcement endeavors to 
provide relevant information to the concerned government(s) in order to 
aid its investigation. With respect to the allegations described in the 
1999 e-mail by a NOAA Fisheries employee that observers in the Mexican 
National Observer Program regularly take bribes to alter data, a NOAA 
Fisheries enforcement officer followed up on this allegation by 
interviewing the NOAA Fisheries employee who forwarded an account of 
his conversation. However, the interview did not yield any specific 
leads.
    Allegations such as those made in the 1999 e-mail are very general 
and, as a result, difficult to validate and investigate. The IATTC 
investigated these general allegations by comparing differences in 
frequencies with which several national observer programs reported 
different types of observer data and compared those frequencies to 
those of the IATTC's international observer program (also see response 
to Question 6 for greater detail on the analysis). The results of the 
comparison did not support the claim that observers employed by any 
national observer program were regularly taking bribes that would alter 
the data they report at a significant level.
    The IATTC Secretariat investigates all specific allegations of 
observer interference. If an observer reports that a fishing captain or 
other member of the vessel's crew interfered with his/her ability to 
perform his/her duties, the IATTC/AIDCP Secretariat presents this 
information to the Nation with jurisdiction over the vessel and its 
crew to investigate and apply any sanctions, if warranted. The IATTC/
AIDCP Secretariat then reports whether the Nation determined that an 
infraction occurred and, if so, whether a sanction was applied.

    Question 3. Why does the Administration believe these allegations 
were irrelevant to its decision in 2002 to relax restrictions on 
foreign-caught tuna?
    Answer. The Administration believes that allegations of observer 
interference, including bribe attempts, could only be relevant to the 
2002 final finding to the extent that the allegations could be 
substantiated to some degree. For the purposes of the final finding, a 
distinction was drawn between unsubstantiated allegations and those 
that could be verified to some degree. The Secretary of Commerce did 
not consider unsubstantiated allegations in making the final finding. 
In addition, while allegations of observer interference have been made 
in reference to observers in the ETP purse seine fishery, as well as 
other domestic and international observer programs, the information we 
have to date does not indicate that observer interference occurs on a 
scale that would have changed the Secretary's final finding (i.e., that 
the purse seine fishery is not having a significant adverse impact on 
depleted dolphin stocks).

    Question 4. What steps are being taken by the Administration to 
address concerns that observer-reported data regarding dolphin-safe 
tuna has been falsified?
    Answer. The Administration is taking several steps to ensure that 
observer data continue to be reported accurately and that consumers 
continue to have confidence in the integrity of the dolphin-safe label 
for tuna. At the June 2004 meeting of the IATTC, the United States 
proposed that all vessels over 24 meters in length be required to carry 
a vessel monitoring system (VMS). VMS will provide an additional tool 
to verify observer records. For example, techniques are being developed 
to use VMS to identify fishing signatures, such as characteristics of 
vessel movements and speed that would indicate a vessel is fishing on 
tuna associated with dolphins.
    The Parties to the AIDCP are also considering how to proceed with a 
port sampling program using catch composition to determine whether 
vessels less than 400 short tons carrying capacity, which are not 
required to carry observers, are setting on tuna associated with 
dolphins. The port sampling program would statistically compare the 
catch composition of small vessels with tuna caught by large vessels in 
association with dolphins to compare the size and species of tuna. A 
statistical decision rule would be established to determine whether a 
small vessel is likely setting on tuna associated with dolphins and, as 
a result of an October 2002 resolution adopted by the Parties to the 
AIDCP, must carry an observer on future trips.

    Question 5. Mr. Hogarth stated at the House hearing that the 
IATTC's International Review Panel (IRP), which reviews infractions by 
member nations, is ``transparent.'' However, the IRP in fact is not 
open to anyone. Members are nominated by the IATTC Secretariat and 
voted in by member governments. These members must sign a 
confidentiality agreement to not reveal any of the workings of the IRP. 
The only public documents from the IRP are the Annual Reports, which 
summarize infractions. No information on the names of tuna boats or the 
names of captains involved in infractions is available to the public or 
interested parties. Why does Mr. Hogarth consider the IRP 
``transparent''?
    Answer. The Commerce Department's representatives to the AIDCP 
agree with Dr. Hogarth's characterization that the International Review 
Panel (IRP), which makes recommendations to the Parties to the AIDCP, 
is transparent to both its members and the general public.
    IRP membership is comprised of representatives of each of the 
national governments that are Parties to the AIDCP and representatives 
of non-governmental organizations, such as The Ocean Conservancy and 
the Humane Society of the United States. The United States has also 
included additional interested individuals in its delegation, as many 
of the Parties do, so they may attend IRP meetings.
    IRP members discuss actions that could constitute possible 
infractions of the AIDCP reported by observers. The IRP determines 
which of these actions should be referred to national governments for a 
full investigation and to apply any sanctions. All possible infractions 
identified by the IRP are referred to national governments for this 
purpose. IRP meeting attendees, whether members of or additions to a 
national delegation, must sign a confidentiality agreement in order to 
protect the identities of individuals or companies whose alleged 
actions may have violated the AIDCP, but for which an investigation has 
not been conducted. In the opinion of the Commerce Department's 
representatives to the AIDCP, publishing the names of individuals or 
vessels that may (or may not) have committed an infraction would not 
increase the transparent procedures of the IRP. However, in some 
instances the names of vessels or captains have been released in order 
to address the rare event of egregious non-compliance records.
    In addition, the IATTC/AIDCP Secretariat publishes the list of 
vessels authorized to purse seine for tuna in the ETP and a list of 
captains who are qualified to harvest tuna associated with dolphins; 
only captains on this list may operate vessels with dolphin mortality 
limits. Captains may be removed from this list for several reasons. The 
United States requested that the IATTC/AIDCP Secretariat publish and 
distribute to the AIDCP Parties on a quarterly basis the names of these 
captains and reasons for their removal. In order for a captain to be 
reinstated on the list of qualified captains, he must attend an 
instructional seminar and have complied with any sanctions applied to 
him.
    The IRP publishes meeting minutes and annual reports on the IATTC 
website. These documents are available to the public and include all 
possible infractions, by flag and type, identified by the IRP and the 
actions taken by governments to respond to these possible infractions.

    Question 6. The IATTC's IRP has documented in annual reports 
numerous accounts of observer interference and harassment over the 
years. The IRP has also issued numerous statements concerning the 
serious lack of enforcement by member governments and has called on 
member nations to better enforce the terms of international agreements 
to protect observers. In light of this, why do Mr. Hogarth and the 
Administration continue to insist that the IATTC program is reliable? 
What is the U.S. delegation, which still provides the majority of 
funding for IATTC functions, doing to improve enforcement and avoid 
bribery and intimidation of observers?
    Answer. The AIDCP On-Board Observer Program is reliable. The AIDCP 
Parties have been concerned that national observer programs may be 
biased in the data they report, so they asked the IATTC/AIDCP 
Secretariat to statistically compare data reported by different 
national observer programs with IATTC's international observer program. 
(A portion of the AIDCP On-Board Observer Program's operational budget 
is funded by IATTC contributions, while the majority is funded by 
individual annual vessel assessments. Because the U.S. fleet is so 
small, the largest fleets of Mexico, Ecuador, and Venezuela pay the 
majority of vessel assessments.) Each observer program's reporting of 
different infractions, numbers of sets on tuna associated with 
dolphins, dolphin mortalities, and other data were analyzed. While no 
statistical trends have emerged, the IATTC/AIDCP Secretariat continues 
to provide analyses to the AIDCP Parties. The reporting rates of the 
national observer programs and the IATTC program do not indicate 
underreporting by one program or in one data field (e.g., number of 
dolphin sets). In other words, these analyses do not support the claim 
that observers in a national program are regularly taking bribes to 
underreport sets on tuna associated with dolphins, infractions, or 
other data.
    The United States investigates possible infractions committed on 
U.S. vessels and by United States citizens. The United States also 
monitors enforcement actions and compliance by other Parties to the 
AIDCP. Recently, the United States and other Parties confronted 
recurring non compliance by Colombian and Bolivian flag vessels. The 
United States took steps to initiate bilateral consultations with the 
governments of these nations under Article XX of the AIDCP. As a 
result, Bolivia's recent actions indicate a renewed commitment to 
complying with the AIDCP and the U.S. delegation is hopeful that 
Colombia will respond similarly. If bilateral consultations do not 
improve compliance, the United States will then consider additional 
options, such as trade sanctions. Neither Colombia nor Bolivia has an 
affirmative finding. As a result, tuna harvested in the ETP by vessels 
of these nations is already embargoed and cannot be imported into the 
United States.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                  Vice Admiral Conrad C. Lautenbacher
    Question 1. I supported NOAA's decision to list the Southern 
Resident orca population as ``depleted'' under the Marine Mammal 
Protection Act. With a 20 percent decline in the population in less 
than a decade, I felt a depleted listing would allow our region to move 
forward and begin identifying the steps necessary to recover these 
regional icons.

  <bullet> For the record, please describe the activities NOAA has 
        undertaken since the depleted listing last May.

  <bullet> A ``depleted'' listing under the Marine Mammal Protection 
        Act triggers the development of[a] conservation plan. What is 
        the status ofthat plan and what actions do you anticipate it 
        will require?

  <bullet> How does a ``depleted'' listing under the Marine Mammal 
        Protection Act compare with an ``endangered'' listing under the 
        Endangered Species Act?

    Answer. When the final rule designating the Southern Resident 
Killer Whale as depleted under the MMPA was published in May 2003, NOAA 
Fisheries had already begun planning for the preparation of a 
Conservation Plan to restore the population. Since then, NOAA Fisheries 
has convened a series of workshops to provide information on what is 
known about the potential factors affecting the decline of the southern 
resident stock and to gather ideas from federal, state, and local 
government agencies, the scientific community, non-governmental 
organizations (NGOs), and interested members of the public on potential 
management actions to aid in conservation of the killer whale 
population. Concurrent with the workshops on management measures, NOAA 
Fisheries research scientists met with outside researchers and 
organizations to identify research needs and prioritize research 
activities related to killer whales. NOAA Fisheries' Northwest Fishery 
Science Center (NWFSC) funded over 20 research projects in 2003 and 
continued many of these, as well as several new projects, in 2004.
    Dates and titles of management measure workshops:

  <bullet> May 7, 2003--Research Workshop on Vessel Interactions

  <bullet> May 13, 2003--Research Workshop on Prey

  <bullet> May 31, 2003--Introductory Conservation Planning Meeting and 
        Interactive Session

  <bullet> October 24, 2003--Conservation Workshop on Contaminants

  <bullet> January 19,2004--Research Workshop on Long-Range Research 
        Plan

  <bullet> March 22, 2004--Conservation Workshop on Vessel Effects

  <bullet> April 19, 2004--Conservation Workshop on Prey

  <bullet> April 20, 2004--Southern resident killer whale behavior 
        workshop

  <bullet> June 5, 2004--Conservation Planning Anniversary Update 
        Meeting

    The conservation workshop agendas, presentations, and notes on the 
suggestions received during the sessions are posted on NOAA Fisheries' 
Northwest Region website at: http://www.nwr.noaa.gov/mmammals/whales/
CPPSKW.html. The research workshop agendas and questions developed are 
listed on the NWFSC website at: http://www.nwfsc.noaa.gov/research/
divisions/sdlkwworkshops/index.cfin.
    Throughout the process, our constituents have encouraged us to 
implement proactive measures while we develop the Conservation Plan. 
These measures include:

  <bullet> Additional hours of uniformed on-water enforcement 
        (Washington Department of Fish and Wildlife)

  <bullet> Support for Soundwatch Boater Education and Stewardship 
        Program

  <bullet> Increased visibility for the ``Be Whale Wise'' whale 
        watching guidelines

  <bullet> Killer whale conservation outreach program with the Seattle 
        Aquarium.

    To move forward with the Conservation Plan, NOAA Fisheries has:

  <bullet> Developed a work plan for the Conservation Plan

  <bullet> Identified facilitation expertise for topic specific 
        workshops

  <bullet> Secured the Seattle Aquarium as the venue for the workshops

  <bullet> Contracted technical expertise for Conservation Plan 
        Development

  <bullet> Hosted topic specific conservation workshops

  <bullet> Coordinated with NWFSC, Washington State, and Department of 
        Fisheries and Oceans, Canada.

    We plan to complete a draft Conservation Plan by the end of 2004 
and a final plan in mid-2005. An integral part of the Conservation Plan 
will be the Long-Range Research Plan currently being developed at the 
NWFSC. The conservation workshops focused on the three main topics 
identified as potential risk factors for killer whales: contaminants 
and pollution, prey, and vessel effects. Considering the many and 
diverse ideas we received during the workshop discussions, we 
anticipate recommended measures in each of the topics identified as 
potential factors for decline. The draft Conservation Plan will be used 
to guide inter-agency discussions on management actions for killer 
whales that may require cooperation and coordination between multiple 
jurisdictions and will be made available to the public for comment.
    A depleted listing under the Marine Mammal Protection Act (MMPA) 
and an endangered listing under the Endangered Species Act (ESA) can be 
compared in four main areas: (1) the way conservation units are 
defined, (2) the status afforded the listed species/stock, (3) the way 
plans for recovery are developed, and (4) the protections afforded to 
the species/stock.
    Conservation Units--The MMPA recognizes ``population stocks,'' 
which NOAA Fisheries has interpreted to mean ``discrete'' groups 
(demographically isolated from one another). The ESA recognizes 
``distinct population segments,'' which NOAA Fisheries and the U.S. 
Fish and Wildlife Service (FWS) have interpreted to mean ``discrete'' 
groups having a ``significance'' or ``importance'' to the evolutionary 
ecology of the species or subspecies.
    Status--Species listed under the ESA are, by definition, depleted 
under the MMPA. However, a species (or population stock) may be 
depleted under the MMPA but not threatened or endangered. ``Depleted'' 
may mean that the population stock is at an abundance considered less 
than optimal for the population (lower abundance than the lower limit 
of Optimum Sustainable Population levels).
    Planning for recovery--Both the ESA and MMPA require plans to 
describe recovery objectives and a list of actions to achieve those 
objectives. Conservation plans under the MMPA are, by statute, modeled 
after recovery plans under the ESA. Conservation plans and recovery 
plans are functional equivalents.
    Protections--The MMPA and ESA both have provisions to prohibit the 
direct ``take'' of animals in the population. A depleted determination 
triggers a ``strategic'' stocks designation, allowing NOAA Fisheries to 
work with other agencies under MMPA section 112(e) to alleviate impacts 
to important habitats that may be causing a decline or impeding 
recovery. The ESA requires NOAA Fisheries to identify ``critical 
habitat,'' and, under section 7, any Federal agency must consult with 
NOAA Fisheries or FWS to ensure that its actions are not likely to 
jeopardize the continued existence of a listed species or adversely 
modify or destroy designated critical habitat. The MMPA has no 
functional equivalent to ESA section 7.

    Question 2. The Southern Resident orca population is currently 
under consideration for a listing under the Endangered Species Act. 
Since the orcas range all over the Puget Sound and are the keystone 
species, an ESA listing could potentially have a dramatic impact on my 
home state.

  <bullet> If NOAA decides to designate the Southern Resident Orcas as 
        endangered or threatened under the ESA, what new steps will 
        your Administration need to take to meet its obligations to 
        protect these animals?

  <bullet> How do you think a listing could affect public and private 
        activities in Puget Sound?

  <bullet> Is NOAA prepared to carry out the necessary consultations 
        with other Federal agencies? If not, what additional resources 
        will NOAA require?

  <bullet> From what you have learned through the ongoing analysis, 
        what is the likelihood that NOAA will list the Southern 
        Resident population?

    Answer. Many of the management options or measures that could be 
invoked as the result of an ESA listing are currently available or 
required under the MMPA. The MMPA provides direct protections, and the 
conservation planning process under the MMPA and the recovery planning 
process under the ESA are functional equivalents. A notable exception 
would be the inter agency consultation requirements under section 7 of 
the ESA. Should listing occur, Federal agencies would be required to 
ensure that programs and projects they authorize, fund, or carry out 
were not likely to jeopardize the continued existence of the Southern 
Resident Killer Whale or adversely modify (or destroy) designated 
critical habitat. Given the potential factors for decline that have 
been identified for the Southern Resident Killer Whale and the 
automatic MMPA determination of ``depleted'' based on ESA listing, NOAA 
Fisheries could foresee a relatively broad suite of Federal actions for 
which consultation might be required.
    To the extent that ESA section 7 results in modification of Federal 
activities, some affect on the activities of public and private 
industry would be anticipated following ESA listing. In addition, 
unpermitted ''take'' of members of listed species would be prohibited 
under both the ESA and MMPA. Any private or public action that would 
cause take would have to be authorized or modified to avoid take. It is 
difficult to speculate the magnitude of this effect given that the 
listing has not occurred.
    ESA listing would result in significant increases in the workloads 
of NOAA Fisheries and partner agencies to perform consultations and 
identify and designate critical habitat for the species. Further, it is 
important not to lose sight of the ongoing work to complete the 
Conservation Plan. This effort would shift to recovery planning should 
listing occur. Funding to support future coordination between NOAA 
Fisheries, the State of Washington, and Fisheries and Oceans Canada for 
implementation of plans to restore the killer whale population will 
continue to be a priority.
    As you are aware, NOAA Fisheries' decision not to list Southern 
Resident Killer Whales following the 2002 Status Review was remanded 
back to the agency by the court in late 2003. As a result of 
instructions from the court, NOAA Fisheries has moved up its commitment 
to review the available science on the status of killer whale taxonomy 
from 2006 to 2004. NOAA Fisheries is completing a second status review 
in light of new information that has become available since 2002 and is 
conducting an updated risk assessment to determine whether or not 
listing is warranted. We anticipate the completion of the process by 
December 17, 2004, the date specified by the court. We will keep you 
informed on the status review and listing determination.

    Question 3. Following the Southern Resident's depleted listing 
under the MMPA, I secured Federal appropriations to fund research by 
NOAA Fisheries that will attempt to determine factors behind the orca's 
decline, define goals for recovery, and identify specific measures to 
help restore the population.

  <bullet> At the hearing, I expressed my disappointment at NOAA's 
        failure to include funding for this important research in its 
        Fiscal Year 2005 budget request. In response, you told me you 
        would look into why those funds were not included. Please 
        update me on your findings.

  <bullet> Understanding what is harming Puget Sound's orcas is of 
        course critical to any successful recovery effort. Please 
        provide me an overview of what has been learned from the 
        research.

  <bullet> How will this research help inform the development of a 
        conservation plan that is required under the depleted or 
        endangered listings?

    Answer. NOAA Fisheries recognizes that funding for research on 
Southern Resident Killer Whales is important for determining which 
factors affect the decline of the whales, defining goals for recovery, 
and determining specific recovery needs. Funding at the FY 2004 
appropriated levels would satisfy many of these needs. Due to budget 
constraints, the Protected Species Management-N. Pacific South Resident 
Orca Population budget line was not included in the President's FY 2005 
budget request. If the President's FY 2005 budget is enacted, NOAA 
Fisheries would use Base Protected Species funding for orca 
conservation efforts.
    Research results related to understanding what is harming Puget 
Sound's orcas have been grouped into the following five areas:

        Taxonomy--New genetic analyses results were presented at an 
        International Cetacean Systematics workshop. The workshop 
        included comprehensive taxonomic review of the killer whale 
        species. Taxonomic information suggests that the Southern 
        Resident Killer Whale may be a part of a putative subspecies of 
        killer whales, North Pacific Residents.

        Vessel interactions--Baseline acoustic measurements have been 
        made in core summer range, and four studies have been 
        undertaken to assess behavioral responses to vessels. Results 
        are pending on-going analyses.

        Prey Associations--Analyses of time-depth recorder data from 
        Southern Resident Killer Whales have indicated that dive depths 
        decreased between 1993 and 2002, suggesting a long term change 
        in prey behavior or abundance. A significant increase in the 
        number of predation event samples were collected, which will 
        improve our understanding of prey selection-results are pending 
        analyses.

        Health Assessment--Recent analyses of pollutant levels in 
        killer whale prey indicate that chemicals currently used in 
        flame retardants are at much higher levels than expected. These 
        chemicals are an emerging threat because these contaminants are 
        known to have negative effects on health.

        Distribution and habitat use--Increased sighting effort has 
        improved our understanding of fall habitat use and we were able 
        to significantly increase the number of winter sightings 
        outside inland waters.

    Research currently being conducted is designed to fill identified 
data gaps and to improve our understanding of the risk factors that may 
be affecting the decline or recovery of the Southern Resident Killer 
Whale. During the conservation planning workshops convened over the 
past year, participants were instructed to consider actions based on 
the known current condition and NOAA Fisheries' Northwest Region noted 
areas that were identified as data deficient for future research 
initiatives. Conversely, the research workshops that the NWFSC 
conducted were used to design and prioritize research projects to 
gather needed data. The new information from research will be used to 
enhance our understanding of the risk factors affecting recovery, 
thereby improving our ability to develop effective management measures. 
The Conservation Plan will contain both management measures based on 
the known current condition and research objectives from the NWFSC 
Long-Range research plan.

    Question 4. At the hearing, I also asked you whether you knew of 
any plans to improve weather radar coverage off the Washington coast. 
My constituents tell me that radar coverage is inadequate and a serious 
safety concern. You stated that you did not know of any efforts to add 
coverage but would research the matter. Please update me on your 
analysis of the situation and what remedies NOAA can take to solve this 
critical problem.
    Answer. The Board on Atmospheric Sciences and Climate (BASC) of the 
National Research Council is conducting a study to assess the 
effectiveness of operating NEXRAD radars in complex terrain in support 
of the National Weather Service's flash flood warning and forecast 
mission, with a focus on Sulphur Mountain, California. The results of 
the study, expected this fall, will form the basis for the NWS to 
develop objective criteria to evaluate whether a given location 
requires increased weather radar coverage, including NEXRAD and other 
more advanced technologies. The NWS will reevaluate radar coverage 
across the country, including the Olympic Peninsula area. Preliminary 
results are expected in the Spring of 2005.

                                  [all]
                                  
                                  







      
</pre></body></html>
